<html>
<title> - REBOOT: EXAMINING THE U.S. DEPARTMENT OF VETERANS AFFAIRS INFORMATION TECHNOLOGY STRATEGY FOR THE 21ST CENTURY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                REBOOT: EXAMINING THE U.S. DEPARTMENT OF


                VETERANS AFFAIRS INFORMATION TECHNOLOGY

                     STRATEGY FOR THE 21ST CENTURY

=======================================================================



                                HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 11, 2011

                               __________

                           Serial No. 112-12

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
67-187                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
Vacancy
Vacancy

            Helen W. Tolar, Staff Director and Chief Counsel

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                      BILL JOHNSON, Ohio, Chairman

CLIFF STEARNS, Florida               JOE DONNELLY, Indiana, Ranking
DOUG LAMBORN, Colorado               JERRY McNERNEY, California
DAVID P. ROE, Tennessee              JOHN BARROW, Georgia
DAN BENISHEK, Michigan               BOB FILNER, California
BILL FLORES, Texas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                              May 11, 2011

                                                                   Page
Reboot: Examining the U.S. Department of Veterans Affairs 
  Information Technology Strategy for the 21st Century...........     1

                           OPENING STATEMENTS

Chairman Bill Johnson............................................     1
    Prepared statement of Chairman Johnson.......................    23
Hon. Joe Donnelly, Ranking Democratic Member.....................     3
    Prepared statement of Congressman Donnelly...................    24

                               WITNESSES

U.S. Department of Veterans Affairs:
  Hon. Roger W. Baker, Assistant Secretary for Information and 
    Technology, and Chief Information Officer, Office of 
    Information and Technology...................................     4
    Prepared statement of Mr. Baker..............................    24
  Belinda J. Finn, Assistant Inspector General for Audits and 
    Evaluations, Office of Inspector General, Office of 
    Information and Technology...................................    14
    Prepared statement of Ms. Finn...............................    31
  U.S. Government Accountability Office, Joel C. Willemssen, 
    Managing Director, Information Technology....................    16
    Prepared statement of Mr. Willemssen.........................    36

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

    Hon. Bill Johnson, Chairman, Subcommittee on Oversight and 
      Investigations, Committee on Veterans' Affairs, to Hon. 
      Eric K. Shinsek, Secretary, U.S. Department of Veterans 
      Affairs, letter dated May 16, 2011, and VA responses.......    48
    Hon. Joe Donnelly, Ranking Democratic Member, Subcommittee on 
      Oversight and Investigations, Committee on Veterans' 
      Affairs to Hon. Roger W. Baker, Assistant Secretary for 
      Information and Technology and Chief Information Officer, 
      U.S. Department of Veterans Affairs, letter dated May 12, 
      2011, and VA responses.....................................    57
    Hon. Joe Donnelly, Ranking Democratic Member, Subcommittee on 
      Oversight and Investigations, Committee on Veterans' 
      Affairs to Belinda J. Finn, Assistant Inspector General for 
      Audits and Evaluations, Office of Inspector General, U.S. 
      Department of Veterans Affairs, letter dated May 12, 2011, 
      and response from Hon. George J. Opfer, Inspector General, 
      U.S. Department of Veterans Affairs, letter dated June 13, 
      2011.......................................................    59
    Hon. Joe Donnelly, Ranking Democratic Member, Subcommittee on 
      Oversight and Investigations, Committee on Veterans' 
      Affairs to Joel Willemssen, Managing Director, Information 
      Technology, U.S. Government Accountability Office, letter 
      dated May 12, 2011, and response letter dated June 22, 2011    61


                 REBOOT: EXAMINING THE U.S. DEPARTMENT


                    OF VETERANS AFFAIRS INFORMATION


                TECHNOLOGY STRATEGY FOR THE 21ST CENTURY

                              ----------                              


                        WEDNESDAY, May 11, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Bill Johnson 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Johnson, Roe, Donnelly, and 
Barrow.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Mr. Johnson. Good morning. This hearing will come to order.
    I want to welcome everyone to today's hearing entitled, 
``Reboot: Examining VA's IT Strategy for the 21st Century.''
    With an information and technology (IT) budget exceeding $3 
billion annually, it is reasonable for the American taxpayer to 
expect the Office of Information and Technology (OI&T) at the 
U.S. Department of Veterans Affairs (VA) to effectively utilize 
available technology and provide the highest quality support in 
the Department's delivery of health care and benefits to our 
Nation's veterans.
    As we will hear from the witnesses on both panels today, 
billions of dollars have been spent on IT at the VA. However, 
veterans, the taxpayers, and Members of this Committee are left 
to wonder what has resulted from these expenditures.
    Have improvements been made? Certainly they have. Are the 
improvements and advancements in VA IT over the last 10 years 
on par with the amount of time and taxpayer dollars put into 
the effort? Certainly not.
    The witnesses on today's second panel will help illuminate 
the magnitude of the money spent on IT over time. To name just 
a few, $127 million over 9 years on an outpatient scheduling 
system with none of the planned improvements in place; 
suspension of the Strategic Asset Management or SAM Program 
after failing to meet yet another milestone; and $70 million in 
an overrun on a WiFi installation contract.
    I also remain concerned that, as with past contracts and 
efforts, VA is not thoroughly vetting cost and risk analysis 
before undertaking new large IT projects.
    While VA continues to push forward on cloud computing, its 
own administration has not fully established the Federal 
guidelines for information security in cloud computing.
    In a health care environment such as VA's, I know that I 
would not want my personally identifiable information floating 
around in the cloud especially given a track record of data 
breaches that is less than stellar.
    We once again notice a history of poor acquisition and 
contract management at VA, a theme this Subcommittee is 
familiar with. Given the frequency of problems in IT contracts, 
we know there must be a significant degree of inexperience 
among the contracting staff, but we are also left to wonder 
whether supervisors at OI&T either do not know or do not care 
about these shortcomings.
    When IT needs are not clearly defined at the beginning of 
the process, it leads to cost increases and time delays down 
the road. With an IT staff of over 7,000, I find it difficult 
to believe that knowledgeable IT professionals are not helping 
to create a well-defined request for proposal, a key element of 
a viable contract.
    When these contracts constantly have to be modified, it 
results in greater cost to the taxpayer and a delay of improved 
services to our veterans.
    A crucial area for VA IT to meet expectations is the 
establishment of the joint electronic health record or EHR with 
the U.S. Department of Defense (DoD). Yet, another overdue item 
for our active-duty servicemembers and our veterans, the EHR 
has been pursued separately by the two departments. The result 
is billions of dollars spent, much of it duplicative, and no 
joint EHR.
    While I commend the secretaries of both departments for 
finally committing this spring to cooperatively pursue this 
endeavor, I have lingering concerns that mistakes made in 
previous IT contracts could be repeated.
    For example, after releasing a final Request for Proposal 
(RFP) on an open-source custodial agent at the end of last 
month, VA is only allowing a 3-week turnaround for proposals to 
be submitted at the end of this week.
    It is not rocket science. The capabilities to do what needs 
to be done already exist. Hundreds of millions of dollars could 
have been saved in previous years by simply having a robust IT 
architecture and strategy in place.
    When needs are clearly defined, protect veterans' 
information, establish an electronic health record in 
conjunction with DoD, and implement stringent oversight of 
these and all undertakings in the Office of Information and 
Technology, everybody benefits, the taxpayer and the veterans.
    I fully understand the challenges of managing information 
technology in a large organization because I have done so. What 
I do not understand is why it has taken so long to get only so 
far at VA.
    The American people are watching and expect VA to take care 
of our veterans as promised.
    Again, I appreciate everyone's attendance at today's 
hearing and I now yield to the Ranking Member for his opening 
statement.
    Mr. Donnelly.
    [The prepared statement of Chairman Johnson appears on p. 
23]

             OPENING STATEMENT OF HON. JOE DONNELLY

    Mr. Donnelly. Thank you, Mr. Chairman.
    Secretary Shinseki has often stated the need to transform 
the VA to meet the changing needs of our warriors. A perfect 
example of this was when the VA found themselves having to 
process education claims manually due to the Legacy System 
being unable to process these claims after the passage of the 
recent historic GI Bill legislation.
    For this reason, I find it important and critical that the 
VA maintains an updated IT system that proves to be reliable 
and can be manipulated as new software is incorporated through 
the years ahead.
    The VA has decided that using an open-source model will 
provide a better outcome with lower risks and lower cost. Their 
cooperation with the DoD on using open source is encouraging, 
in part because this cooperation is essential. There is a 
critical need to develop an interoperable electronic health 
record system and because DoD has relied on open source in the 
past.
    Although there are multiple concerns on both sides of the 
aisle, the VA has reassured us that open source provides 
several benefits. But along with those benefits, making sure 
that veterans' personal information remains secure is critical.
    I also understand that contract management and weaknesses 
have overshadowed VA's efforts to keep up with the VA's IT 
infrastructure. Cost overruns, contract weaknesses, and unmet 
project time frames are just a few examples of the implications 
that can occur if there are no firm requirements in contracts. 
Such was the case with the WiFi awarded contract to Catapult 
Limited.
    We must additionally find a way to reduce our reliance on 
contracting out tasks that do not allow the Department to 
develop internal expertise.
    What I am concerned about is making sure that, first, the 
VA IT has an interoperable model in place; second, best 
practices should be in place from the private and public 
sector; and, third, that new IT strategies have the best value 
for our veterans.
    Additionally, we must ensure we have a clear strategic plan 
that will be for the entire course. We have too often canceled 
a program or contract after many millions of hard-earned 
taxpayer dollars have been spent.
    Finally, I encourage the VA to keep us updated on your 
efforts as we work jointly to give our veterans the 21st 
Century relevant IT system that they deserve.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Congressman Donnelly appears on 
p. 24.]
    Mr. Johnson. I thank the gentleman for yielding back.
    And I welcome the first panel to the witness table. On this 
panel today, we will hear testimony from the Honorable Roger W. 
Baker, Assistant Secretary for Information and Technology and 
Chief Information Officer (CIO) at the Department of Veterans 
Affairs.
    Assistant Secretary Baker is accompanied by Peter L. Levin, 
Ph.D., Senior Advisor to the Secretary and Chief Technology 
Officer (CTO) at the Department of Veterans Affairs.
    Assistant Secretary Baker, your complete written statement 
will be made a part of this hearing record and you are 
recognized now for 5 minutes.

   STATEMENT OF HON. ROGER W. BAKER, ASSISTANT SECRETARY FOR 
INFORMATION AND TECHNOLOGY, AND CHIEF INFORMATION OFFICER, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY PETER L. LEVIN, 
 PH.D., SENIOR ADVISOR TO THE SECRETARY, AND CHIEF TECHNOLOGY 
          OFFICER, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Baker. Thank you, Mr. Chairman and Ranking Member 
Donnelly, for inviting me to testify in front of this Committee 
to discuss the Department of Veterans Affairs' information 
technology strategy for the 21st Century.
    I appreciate the opportunity to testify on our plans, 
actions, and accomplishments on making VA's IT organization a 
21st Century leader in the Federal Government.
    As you said, Mr. Chairman, I am pleased to be accompanied 
today by Dr. Peter Levin, the CTO for the Department of 
Veterans Affairs.
    I will be brief in my oral remarks. My written testimony 
provides details on the transformation we have been working to 
achieve in VA IT. And I believe the next panel will accurately 
depict a few of the many challenges that we faced when I was 
confirmed nearly 2 years ago.
    Since that time, we have made substantial progress in the 
areas of customer service and customer satisfaction, product 
development, information security and privacy, financial 
tracking, and operational metrics.
    Most importantly, we know that we have made progress due to 
the metrics that we now track and report in each of those 
areas. We have begun to operate VA's IT organization like a 
private-sector IT organization.
    But we also clearly have a long way to go in achieving our 
goal of being the best IT organization in government and 
comparable with large scale private-sector IT shops.
    While our metrics support our transformation, they also 
expose areas where much more work is required. So let me just 
touch on a few.
    We must implement a technical reference manual or a TRM for 
our architecture and the processes to govern the specifics of 
what hardware and software is allowed to run in our expansive 
IT infrastructure.
    Today we have over 64,000 different software packages that 
run on our desktop computers. Our visibility of the desktop 
initiative has allowed us to see exactly what runs on each of 
our desktop computers.
    And I doubt that products such as Pinball Wizard have a 
medical use.
    We must reduce the number of servers we support. From my 
private-sector experience, virtualization and elimination of 
physical server count can produce substantial operational 
savings.
    And we must better define and rationalize our architecture 
at all levels, including our network, our data centers, our 
servers, our applications, our desktops, our help desk 
architecture, our product and use of support architecture, and 
at higher levels our medical business architecture, our 
benefits business architecture, and our corporate business 
architectures.
    And we must ring efficiencies out of our application 
support area by pursuing shutdown of redundant or unused 
systems.
    Finally, Mr. Chairman, we must find better ways to 
communicate with and motivate our IT employees because it is 
only through skilled and motivated employees that VA IT will 
achieve our goal as we seek to build an IT organization that 
can be compared with the best private-sector companies.
    In closing, I would like to thank each of you again for 
your continued support of our Nation's veterans, of the 
Department of Veterans Affairs, and of VA IT. And thank you for 
the opportunity to testify before the Subcommittee on the 
important work we are undertaking to improve the results of 
VA's IT investments.
    I look forward to your questions.
    [The prepared statement of Mr. Baker appears on p. 24]
    Mr. Johnson. Thank you, Assistant Secretary Baker.
    We will now begin questioning and I will start off.
    Does VA have an IT architecture that defines the blueprint 
for each of the 16 initiatives that is linked to business 
outcomes?
    Mr. Baker. Thank you, Mr. Chairman.
    I do not believe I would tell you today we have a fully 
documented detailed architecture in that relative to any part 
of our organization. We have in the past had what I would call 
a shelf-ware architecture in the organization, meeting 
requirements, but not really guiding where we were going.
    We have recently put one of our brightest folks in charge 
of the architecture area to renovate that, Dr. Paul Tibbits. I 
would say fortunately one of the first challenges Dr. Tibbits 
had was to be a key player in achieving the joint common 
electronic health record system with the Department of Defense.
    Mr. Johnson. Let's go into that a little bit. Did I 
understand you to say correctly, and correct me if I am wrong, 
that you really do not have a complete architecture of VA's IT 
environment?
    Mr. Baker. That is absolutely correct.
    Mr. Johnson. That is correct. Is it your opinion that an 
architecture that describes the VA business systems environment 
would be a first and critical component of developing an IT 
strategy?
    Mr. Baker. No. Actually, Congressman, I would not. And it 
goes back kind to the analogy of the alligators in the swamp. 
There are a lot of alligators in the VA IT infrastructure.
    As you know, we were consolidated as an IT organization 
about 3 years ago. And a lot of the issues that we faced have 
been along the lines of just getting the basic changing 
analogies, blocking and tackling right inside the IT 
organization.
    Mr. Johnson. I can relate to that. I have done that in the 
commercial world. But I also know that if you do not know where 
you are going, any road will get you there.
    How many systems do you have in VA in IT? How many systems 
do you guys support?
    Mr. Baker. Speaking from an application system perspective, 
the best estimate I would give you is in the 400 to 500 range. 
I know that we support approximately 300 of those in our Austin 
Information Technology Center or the Corporate Data Center 
Office. Most of our systems are going to be supported there and 
then other systems throughout the organization. So I think 500 
is a reasonable estimate.
    Mr. Johnson. Do you have a lead integrator that is linking 
the 16 initiatives and the associated projects to ensure 
consistency, standardization, and that these systems are going 
to talk to one another?
    Mr. Baker. We do not have a contractor from that 
perspective, no.
    Mr. Johnson. Who is handling the integration effort?
    Mr. Baker. We have a member of our architecture team 
embedded with each of the major initiatives and we have the 
major initiative lead from an IT perspective working together 
to ensure that we are doing things that work together from the 
major initiative perspective.
    Mr. Johnson. Do you have a timeline for developing an IT 
architecture?
    Mr. Baker. I could not give you one off the top of my head 
today, Congressman. I know Dr. Tibbits is working that right 
now. And to be clear, there are many facets of the IT 
architecture.
    As I mentioned in my oral testimony, the first thing we are 
working on right now is the technical reference manual, 
something that then governs exactly what is allowed to run in 
our infrastructure as, if you will, a baseline from there. We 
are working on architectures in the areas of networks.
    So, for example, we know where all of our circuits are. We 
know what our basic architecture at the network level is. But 
looking forward, we need a forward-looking network architecture 
and not a backward-looking circuitry of an architecture.
    Mr. Johnson. You and I certainly agree on that regard. I am 
encouraged when you talk about virtualization because I have 
undertaken massive virtualization programs in the commercial 
world. And I can tell you that it brings tremendous benefits 
and cost savings.
    How many data centers does the VA have?
    Mr. Baker. I believe that the report that we have given OMB 
says, I think it is 62 at this point.
    Mr. Johnson. What is your life cycle replacement process 
for replacing the servers? How many servers do you have in 
those data centers?
    Mr. Baker. Right now the best number I have to give you and 
we are trying to define between virtualized instances and 
physical instances----
    Mr. Johnson. Physical servers.
    Mr. Baker. My problem is today I know the number 37,000. 
Some of those are virtual on top, you know, multiple virtual on 
top of a single physical.
    Mr. Johnson. Well, we are going to come back to this 
probably in a second round of questioning. I have some others. 
But I am going to defer to my colleague, Mr. Donnelly, now to 
ask his questions, but we will come back.
    Mr. Baker. Thank you, Mr. Chairman.
    Mr. Donnelly. Thank you, Mr. Chairman.
    In looking at the Catapult contract, when you say that the 
acquisition team established a very aggressive timeline for the 
acquisition process and 236 sites, 45 are done, the cost 
overruns are staggering.
    What was the decision framework used? I mean, how was that 
done that you wound up in a contract where it was not fully 
delineated, all the details were not there, all the information 
to get this done? How do you jump off when it appears that not 
every T was crossed?
    Mr. Baker. Thank you, Mr. Congressman.
    That contract was awarded well before my time.
    Mr. Donnelly. Well, I understand.
    Mr. Baker. But as I looked at that contract, there are some 
mitigating parts of that. One of the things that is clear is 
that we, the government, underestimated the amount of concrete 
and metal in our hospitals.
    Our goal in that WiFi contract was to prepare the way for 
advanced medical equipment that could be completely untethered 
from the wall and so we looked to provide 100 percent coverage 
and strong coverage for a WiFi signal inside of our hospitals.
    It is fairly, I have to say, well-known physics that thick 
concrete and metal structures will block the signal and require 
more points of presence to accomplish that level of coverage.
    My understanding is that that was the major cause of 
escalation in that contract was the underestimate of the number 
of points of presence that would be required in each facility.
    From that perspective, that is a reasonable reason for the 
contractor to increase the costs. We are asking them to do more 
work. So we have done a better job of understanding from site 
surveys and other studies that that was factually true. I 
believe so. And that would lead to a more accurate contract 
award at the time of award to the vendor.
    Mr. Donnelly. The contract itself had an engineering change 
request that permitted pricing modification.
    I mean, is there a point where you say this is what we are 
going to give you and those are the funds you get and we expect 
you to do the job for those funds?
    Mr. Baker. Yes. The problem there is that the contractor's 
appropriate response then is, yes, and I will deliver exactly 
what I contracted for for those dollars.
    And so if you go into a facility and what we ask them to do 
will give us 70 percent wireless coverage, it really does not 
make sense to even wire the facility because then I could not 
use those WiFi devices.
    If a nurse is going to do bar code medication 
administration with a WiFi device, but 30 percent----
    Mr. Donnelly. Well, let me ask you this. As we sit here 
today, we have 45 sites done, I think, out of 236?
    Mr. Baker. The number I had in my head was about a third of 
our major hospitals were done.
    Mr. Donnelly. Okay. Are we even capable of giving specs for 
a contract on this at this point? Do we know what a hundred 
percent coverage would entail and could you get a fixed price 
for something like that right now?
    Mr. Baker. I believe so. We have stopped the previous 
contract per the report and other advice provided. And we are 
moving forward with the award of a new contract based on site 
surveys done independently of the new contractor. We are going 
to take the lessons learned from the previous contract and move 
forward with a new contract. Specifically to your question, we 
ought to be able to get a firm fixed price that we do not have 
to issue change orders against from the vendor to accomplish 
what we want to accomplish.
    Mr. Donnelly. What kind of time frame are you looking at?
    Mr. Baker. Congressman, I do not have that off the top of 
my head, but I believe we could give you the detailed 
acquisition schedule in a response after the hearing.
    [The VA subsequently provided the following information:]

         Target award date for the new Wi-Fi installation contract is 
        First Quarter FY 2012, and projected timeline to complete award 
        to all remaining VAMC sites is 12-18 months from award.

    Mr. Donnelly. And one other question. Has the VA done an 
analysis yet on long-term savings by using open source for the 
joint electronic health record?
    Mr. Baker. Thank you, Congressman.
    Yes, we have. And it goes down this path. We run one of the 
best electronic health record systems in the country right now, 
but we have proven that the normal methods available to the 
government to improve that system are not going to keep it up 
with the rate of improvement in the private sector.
    We know from other folks' experience that in a number of 
years, and I peg it at 5 to 10 years, if we do not 
substantially improve VistA, my successor will be back here 
asking for somewhere around $16 billion to replace VistA in the 
hospitals. We must run a good electronic health record system 
in the hospitals. The benefits from a health care standpoint 
for veterans are outstanding and well proven.
    Our move to open source is an attempt to use private-sector 
methods to bring the private sector much more into how we 
improve VistA and forestall or completely avoid having to pay a 
massive bill to replace VistA. If we can improve VistA and the 
costs for that incrementally are minimal, then we can avoid a 
huge out-year expense to replace it.
    Mr. Donnelly. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Johnson. Thank you, Mr. Donnelly.
    Mr. Roe.
    Mr. Roe. Thank you, Mr. Chairman. Just a couple of 
questions.
    One, how big is this system when you look at DoD and how 
many people are we covering and just how enormous is this 
system?
    Mr. Baker. My understanding of the metrics is that between 
the two organizations, we have about 15 million annual patients 
covered by the two electronic health record systems. Probably 
between 15 and 20 million electronic health records inside the 
two systems.
    I believe each system individually is among the largest 
health care organizations in the country. Both organizations 
were out in front in adopting electronic health record systems. 
So singly we are huge. Jointly we are massive.
    Mr. Roe. Well, the next question is, where are we timeline-
wise? I have talked about this before, on getting this done 
because I think it is absolutely essential that you do not have 
two parallel massive systems that cannot talk to each other and 
it is obvious they are not going to be able to talk to each 
other? So where are we in that timeline?
    Mr. Baker. Congressman, Secretaries Shinseki and Gates 
absolutely agree with you. They have put us on a path to 
achieve a single common electronic health record system. I 
cannot get out in front of their communication relative to 
their May 2nd meeting. I can tell you, though, that our 
organizations have been working together for about 6 months.
    The most important thing the two secretaries did was to 
agree that no is not an answer. The answer is yes and our 
organizations should figure out how to make that happen. That 
has come together very nicely.
    I really have to not go any further than that in order to 
not get out in front of the secretaries, but we are very----
    Mr. Roe. Let's get down a little bit more. When we had the 
changeover, when Secretary Panetta will be there, I do not know 
whether he has been brought up to speed or not. My concern is, 
he is going to be drinking from a fire hose when he first gets 
there. I mean, he really is.
    And where is this priority? I do not want to sit here 2 
years from now and we are having the same conversation because 
we get lost. I mean, he is going to be looking at three wars, I 
guess, now and all the other things that he is going to be 
doing in his new shop. And it is the infrastructure just below 
him to keep this ball rolling down the road.
    Mr. Baker. I believe I could safely say that that concern 
exactly 6 months ago from Secretary Shinseki's perspective is 
what kind of lit this discussion off.
    I believe our objective and what we will accomplish is to 
have this nailed down before Secretary Gates leaves. We expect 
that Secretary Panetta will also be interested in it. But I 
know from the experiences Dr. Levin and I have had with working 
with the DoD that this has moved well beyond Secretary Gates 
into their organization at this point.
    Mr. Roe. Good. I think that is essential because I think 
once you get the momentum, it will happen.
    Do you have any time frame that you can think of that this 
could--I mean, is it a year, 2 years?
    Mr. Baker. Congressman, I just have to not get out in front 
of the secretaries on that one. I apologize. We are moving as 
quickly as we can and very hard. I expect a communique from 
them here in the next week or so that we will be able to give 
you more information.
    Mr. Roe. Okay. And I guess the other thing I would like to 
know since we had the sort of loss of data, is this data stored 
in secure servers off site? How is the data backed up, because 
I know when we put our ERM in, that was a huge issue about 
where the data is stored and if you have a crash, can you 
operate your system? In other words, if it is down, what do you 
do?
    Mr. Baker. Let me start with the metrics. We have a very 
good track record on availability of VistA systems. It is about 
99.95 percent availability nationwide.
    To the data question, the VistA systems today run in VA 
data centers. In half of the country, we have achieved 
consolidation of those systems into regional data centers. We 
will have 11 or 12 hospitals supported from a single data 
center. All the data is stored there and backed up there and 
retained there. The local facility has a read-only version of 
that data in case there is an outage to back up.
    In the other half of our systems, the VistA systems 
hospitals, the VistA systems still run in the hospital and they 
back up locally there at their facilities.
    Mr. Roe. Well, my time is up, but does DoD do the same 
thing?
    Mr. Baker. I am not familiar enough with DoD's setup to 
really answer that question right now.
    Mr. Roe. Okay. I yield back.
    Mr. Johnson. Thank you, Dr. Roe.
    I want to go back to something that came out of Mr. 
Donnelly's questioning and correct me if I am wrong. He asked 
you if you have a cost analysis, cost-benefit analysis for your 
open-source decision.
    And I understood you to say that you do; is that correct?
    Mr. Baker. At this point, we do, Congressman, yes.
    Mr. Johnson. Well, I am curious because in previous 
conversations that we have had with you, Mr. Secretary, you 
said you did not have that.
    Mr. Baker. At that point in time, we did not. Based on----
    Mr. Johnson. But, yet, you have already talked to the 
industry about your decision to move to open source.
    Did you have that cost analysis before you made that 
decision? I mean, what good does a cost analysis, cost- benefit 
analysis do if you are going to make the decision before you 
get it?
    Mr. Baker. Well, as I discussed, I cannot remember if you 
and I had this discussion or if it has been with your staff, 
the cost-benefit analysis on open source is pretty 
straightforward.
    Mr. Johnson. Can you provide that to us?
    Mr. Baker. Yes.
    Mr. Johnson. All right. We can get it this week?
    Mr. Baker. Yes. We can provide it to you this afternoon.
    Mr. Johnson. Okay. We would like to see that.
    [The information provided to the Subcommittee staff was 
inadequate.]
    Mr. Johnson. Let me go back to the data centers question 
again. You said you have 62 data centers, approximately 37,000 
servers, correct?
    Mr. Baker. Yes.
    Mr. Johnson. I hate to drill down into some technology 
stuff, but I have a method to my madness here. That equates to 
596 physical servers per data center on the average. Does that 
sound right to you?
    Mr. Baker. I think to go back to the answer, the issue with 
the 37,000 number that I just discovered this morning as I was 
asking my staff is we think that some amount of that is 
actually counting virtual instances, multiple virtual instances 
that run on a single physical server.
    Mr. Johnson. Yeah. So do you know how many physical servers 
you have in your network?
    Mr. Baker. Today I do not have that answer. Yesterday when 
I prepared my testimony, I thought I had that answer for you.
    [The VA subsequently provided the following information:]

         As noted at the hearing, VA has around 37,000 virtual servers. 
        The number of physical servers is 12,235.

    Mr. Johnson. See, an architecture would tell you that. And 
the first step in managing an environment as complex as yours 
is, as costly as the VA's is, that would be a very, very first 
step because with virtualization, as you said, some 
organizations are seeing anywhere from 50 to 70 percent 
reductions in physical servers.
    What is your life-cycle replacement strategy for servers?
    Mr. Baker. It depends on the server type. In general, we 
would like to replace them in the 4 to 6 year time frame. We 
have some, for example, the database servers on the VistA 
systems, that are well beyond that service period.
    Mr. Johnson. How much on the average does a physical server 
cost, the type that you guys use? And you may use multiple 
types of servers, but as a general rule, do you have any idea?
    Mr. Baker. The best number I have for you there, sir, is 
about $10,000 each.
    Mr. Johnson. Okay. All right. Let me go back. Do you have 
any metrics to measure your progress along these 16 
initiatives? Do you have any metrics that will tell you whether 
or not you are achieving the goals? I mean----
    Mr. Baker. Yes.
    Mr. Johnson. You do?
    Mr. Baker. Each and every one of the 16 major initiatives 
has an operating plan agreed to with the Deputy Secretary. The 
Deputy Secretary manages each of those initiatives on a monthly 
basis to their operating plan. So we look at are they achieving 
the milestones and results at the initiative level.
    Underpinning that then are specific IT projects that are 
managed to the milestones for those IT projects and whether 
they are making those inside of the Program Management 
Accountability System (PMAS).
    Mr. Johnson. How many different functional areas does your 
IT department support within VA? I mean, you have financial 
applications, I am sure. You have various health applications. 
What different functional areas?
    In a manufacturing company, you would have operations, you 
would have finance, you would have purchasing, you would have 
all of those different things. What are the different 
functional areas that your department supports?
    Mr. Baker. So from an IT perspective, we look at our 
customers inside the organization in three areas. There is the 
health portfolio, there is the benefits portfolio, and there is 
the corporate portfolio systems.
    So in corporate would be human resources and finance, the 
contract management system, those sort of things.
    In the benefits portfolio would be each of the systems 
necessary to support the various pieces of the business of the 
Veterans Benefits Administration, so education, compensation 
and pension, loan guarantee, and also national cemeteries with 
their electronification.
    And then in the health portfolio, the main items are the 
automation systems in the hospitals, but there is also a 
financial portfolio inside of health for their business office. 
I think that is probably a fairly reasonable view of the 
overall portfolio.
    Mr. Johnson. And theoretically all of those systems pass 
information back and forth one to another, right?
    Mr. Baker. We sure wish they did a lot more of it, sir, 
yes.
    Mr. Johnson. Back to my concern about architecture. Is open 
source on the multi-year program?
    Mr. Baker. Yes.
    Mr. Johnson. Okay.
    Mr. Baker. As I understand the question.
    Mr. Johnson. Okay. Well, you know, I am going to sort of 
summarize with this.
    Mr. Donnelly, do you have any other questions?
    Mr. Donnelly. No more questions.
    Mr. Johnson. You know, I have heard your testimony this 
morning, no architecture, no timeline for an architecture. When 
asked by Dr. Roe if you have a timeline for EHR integration 
with DoD, there is no timeline for that.
    I am just really confused and concerned about how the 
taxpayers' resources are being used and the level of support 
that we are providing to our veterans.
    You have some 7,000 people in the IT department within the 
Veterans Administration. I am trying to equate that to my 
experience.
    I know in 1992, the United States Air Force's Software 
Development Center had roughly 2,000 people to develop all of 
the software, maintain that software for the entire portfolio 
for the air force, everything from food service to dropping 
bombs.
    I just find it hard to believe that with an architecture 
and an understanding of how these systems should be integrated 
together that we could not find cost savings, resource 
efficiencies. And I know you are nodding in agreement and some 
of your testimony indicates that you want to get there.
    Why is it taking so long? How long have you been there?
    Mr. Baker. Next week will be 2 years.
    Mr. Johnson. Why is it taking so long because you are not 
the first that this committee has had these types of 
discussions with? This seems to be an ongoing thing.
    I told someone the other day I feel a little bit like a 
greyhound at a dog track. We come out and then we chase these 
rabbits around from one session of Congress to the next. We put 
the rabbit up and then the next session, we bring the rabbit 
out. We chase him around again and we get many of the same 
answers over and over and over again.
    I think the American people, I think America's veterans 
deserve better than that.
    Why is it taking so long to get our arms around 
architecture, around common-sense business practices, around 
project management, concepts like virtualization that has been 
around for years now? Why is it taking so long, Mr. Secretary?
    Mr. Baker. Congressman, in a much longer discussion, I 
would love to have that discussion, but----
    Mr. Johnson. We have plenty of time. I mean, we have the 
hearing room until noon to hear what your comments are.
    Mr. Baker. Let me answer it this way. I do not believe that 
I have established a reputation for sitting around. We 
introduced PMAS, the Program Management Accountability System, 
within 1 month of me----
    Mr. Johnson. Mr. Secretary, I asked you very specific 
questions around architecture, around common-sense project 
management, business practices, things like cost-benefit 
analyses coming out after the fact.
    Why is it taking so long to get common-sense IT strategic 
planning processes in place within the Veterans Administration?
    Mr. Baker. The simple answer, Congressman, is that the 
government clearly does not operate like a private-sector 
organization. None of the disciplines that I think are 
necessary for an IT organization existed inside of VA IT. The 
way it had been run before I arrived was not in a way a 
private-sector organization would be organized or run.
    We have implemented strong financial disciplines. I pulled 
$700 million out of VA IT and saved that money to spend it in 
better places because, frankly, when I arrived, that money was 
being wasted.
    We have a good track record of focusing on it. I understand 
your focus on architecture. I would like to get there. But the 
problems we faced when we came in that you are about to hear 
about from the next panel, failing $127 million programs like 
replacement scheduling, had to be dealt with, had to be dealt 
with soon so we did not continue to waste the taxpayers' 
dollars.
    Mr. Johnson. Well, you have got----
    Mr. Baker. I agree with you on architecture, sir. I do not 
disagree with you. I think our only difference is in the 
perspective on what things are going to bite us hard first.
    As we both know, a VistA system down in a hospital is 
critical and I had to make certain that that would not occur. I 
had to make certain that information loss was stemmed, that we 
would not have issues in those areas.
    I had to stop our failing IT programs that were wasting 
hundreds of millions of dollars of taxpayers' money.
    I agree with you on architecture. I would love to get 
there. I believe it is a matter of prioritization and just the 
way that I look at an IT organization.
    Mr. Johnson. I commend the fact that you recognize that 
some of these problems exist. I mean, that part is encouraging.
    I will leave you with this. I remain concerned that we do 
not have an overall 30,000-foot view of the VA's IT 
environment, how these systems interconnect, which system is 
required to talk to another system, and how we are utilizing 
the millions of dollars that are being spent on IT within VA, 
and what we are doing with those 7,000 people.
    I think the American taxpayer is asking for answers around 
that. You well know, you hear it every day America is broke. We 
have to find a way to do things better, to do things more cost 
effectively.
    And, you know, from my perspective, and I hear you say that 
you recognize some of those, IT is one of the most costly 
aspects of any organization's cost basis today, in today's 
environment. There is no question about that. It is also the 
place where the most savings can be recognized with sound, 
common-sense best practices, those kinds of things.
    And so I thank you for your testimony today. I am going to 
encourage you to stay around----
    Mr. Baker. We will be here.
    Mr. Johnson [continuing]. And listen to the next panel. And 
with that, you are excused. Thank you very much.
    Mr. Baker. Thank you.
    Mr. Johnson. Well, I invite the second panel to the witness 
table. On this panel today, we will be hearing testimony from 
Belinda J. Finn, Assistant Inspector General for Audits and 
Evaluations at the VA Office of Inspector General (OIG).
    Ms. Finn is accompanied by Ms. Maureen T. Regan, Counselor 
to the Inspector General at the VA Office of Inspector General.
    We will also receive testimony in this panel from Joel 
Willemssen.
    Am I pronouncing that right?
    Mr. Willemssen. Yes, sir.
    Mr. Johnson. Okay. Managing Director for Information 
Technology at the U.S. Government Accountability Office.
    Ladies and gentleman, your complete written testimony will 
be made part of the hearing record. We will begin with Ms. 
Finn.
    You are now recognized for 5 minutes.

 STATEMENT OF BELINDA J. FINN, ASSISTANT INSPECTOR GENERAL FOR 
   AUDITS AND EVALUATIONS, OFFICE OF INSPECTOR GENERAL, U.S. 
   DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY MAUREEN T. 
REGAN, COUNSELOR TO THE INSPECTOR GENERAL, OFFICE OF INSPECTOR 
   GENERAL, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND JOEL C. 
  WILLEMSSEN, MANAGING DIRECTOR, INFORMATION TECHNOLOGY, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

                  STATEMENT OF BELINDA J. FINN

    Ms. Finn. Thank you, sir.
    Mr. Chairman and Members of the Committee, thank you for 
the opportunity to discuss the OIG's findings regarding VA's 
management of its information technology projects.
    Ms. Maureen Regan, Counselor to the OIG, is also here 
today.
    Our testimony summarizes our recent work highlighting 
issues regarding VA's IT governance and system developments.
    During our audit of VA's IT capital investment management, 
we examined VA's realignment of its IT program from a 
decentralized to a centralized management structure.
    We reported that the ad hoc manner in which the Office of 
Information and Technology or OI&T managed the realignment had 
resulted in an environment with inconsistent management 
controls and inadequate oversight.
    Further, in September 2009, we reported that VA needed to 
manage its major IT development projects in a more disciplined 
and consistent manner.
    In general, VA's processes were adequate. However, OI&T had 
not communicated them, complied with them, or enforced the 
software development requirements.
    Our audit work on several IT development projects has 
identified problems with inadequate project and contract 
management, staffing shortages, and lack of guidance. These 
recurring themes have repeatedly hindered VA's IT development 
success.
    Our reports on the Financial and Logistics Integrated 
Technology Enterprise Program, better known as FLITE, concluded 
that program managers were repeating problems from the failed 
CoreFLS Project. Specifically the FLITE Program managers did 
not have requirements, plans, and controls to ensure the 
achievement of cost, schedule, and performance goals, have 
sufficient staff or clear roles and responsibilities, and 
effectively identify and manage the risk associated with the 
Strategic Asset Management Pilot Project.
    OI&T has since suspended the Pilot Project for not meeting 
user acceptance requirements.
    Our report on the Post-9/11 GI Bill long-term solution 
concluded that OI&T met schedule deadlines while sacrificing 
cost and performance objectives. Lacking the management, 
discipline, and processes for effective project development, 
future long-term solution releases to meet mandates of the 
revised GI Bill could meet the schedule, but at the expense of 
cost and performance goals.
    Our report on the Veterans Services Network Project, 
VETSNET, concluded that, given the competing priorities, VA's 
plans and schedule for migrating all programs to the new 
system, the VETSNET System, were unclear.
    Work to meet the original program objectives had been 
extended by 5 years and at a cost of $308 million are more than 
two times the projection from 2006.
    OI&T has historically struggled to manage IT acquisition 
contracts effectively. In response to a hotline complaint, we 
reviewed a contract to install wireless networking services at 
236 VA sites. We found the time frames to plan, solicit, and 
award the contract were unreasonable.
    VA had also issued a statement of objectives without enough 
detail for vendors to submit reasonable proposals resulting in 
escalating contracting costs and delayed network installation 
nationwide.
    In conclusion, the Department historically has struggled to 
meet IT development cost, schedule, and performance objectives. 
We are currently reviewing OI&T's new Program Management 
Accountability System to assess the controls that are needed to 
improve program oversight and ensure success in development 
efforts.
    Mr. Chairman, thank you again for the opportunity to be 
here today. Ms. Regan and I would be pleased to answer any 
questions that you or other Members may have.
    [The prepared statement of Ms. Finn appears on p. 31.]
    Mr. Johnson. Thank you, Ms. Finn.
    Mr. Willemssen, you are now recognized for 5 minutes.

                STATEMENT OF JOEL C. WILLEMSSEN

    Mr. Willemssen. Thank you, Mr. Chairman, Ranking Member 
Donnelly. Thank you for inviting us to testify today on VA's 
management of information technology.
    As requested, I will briefly summarize our statement.
    Our work at VA over the last several years has shown that 
the Department faces challenges in effectively managing IT. 
Today I will cover three of those.
    One, developing information systems; two, securing 
information and systems; and, finally, working with the 
Department of Defense to implement joint solutions.
    Regarding developing systems, we have recently reported on 
two important VA systems development projects. VA began work 
more than a decade ago on the first project, an effort to 
replace the Outpatient Appointment Scheduling System that the 
Department said had long-standing limitations.
    However, after spending an estimated $127 million over 9 
years, VA had not implemented any of the project's planned 
capabilities. The effort was hindered by weaknesses in several 
key management disciplines such as acquisition planning, 
requirements analysis, testing, progress reporting, risk 
management, and oversight.
    We made recommendations to VA in each of these areas to 
improve future development of needed capabilities.
    We also reviewed VA's development of a new system for 
processing Post-9/11 GI Bill educational assistance benefits. 
In this case, we found that VA had delivered initial key 
automated capabilities and was, therefore, able to provide 
regional processing offices with the capability to prepare 
benefits claims.
    However, we also identified areas for improvement and made 
several recommendations to VA to further guide full development 
and implementation of the entire system.
    Let me next turn to a second major VA challenge, 
information security. Long-standing weaknesses in security 
controls have consistently been a material weakness at VA. We 
and the VA OIG have issued numerous reports showing that these 
weaknesses are pervasive and place VA's program and financial 
data at risk.
    Implementation of the many recommendations directed to VA 
and a fully effective information security program are critical 
to the Department reducing its security risks.
    Finally, let me highlight the barriers that VA faces in 
establishing shared electronic record capabilities with the 
Department of Defense.
    VA and DoD each have massive health care operations and 
each spend large sums of money to separately develop and 
operate electronic health record systems.
    Earlier this year, we reported that due to barriers in 
three key areas, VA and DoD lacked mechanisms for identifying 
and implementing IT solutions to jointly address their common 
health care system needs.
    These barriers were, one, strategic planning that jointly 
addressed requirements; two, enterprise architectures to guide 
how they would move to an integrated set of systems; and, 
three, investment management processes that would help ensure 
that chosen solutions would meet the departments' common needs 
and provide better value to the government as a whole.
    We recommended several actions to the secretaries of 
Veterans Affairs and Defense to overcome these barriers. Both 
departments concurred with our recommendations and in March of 
this year, the secretaries committed their respective 
departments to pursue joint development of integrated 
capabilities. Doing so can lead to better solutions at lower 
cost.
    That concludes a summary of my statement and I look forward 
to your questions. Thank you.
    [The prepared statement of Mr. Willemssen appears on p. 
36.]
    Mr. Johnson. Thank you very much.
    Ms. Finn, you mentioned in your testimony that they have 
adequate oversight processes, right? Did I understand that 
right?
    Ms. Finn. I believe what I referred to was that the 
policies and procedures for system developments seemed adequate 
in that they reflected the commonly accepted best business 
practices for system developments.
    Mr. Johnson. Okay. But, yet, you indicated that the problem 
was with compliance with those processes?
    Ms. Finn. Yes. The issue was compliance with those 
processes and the implementation of them. To be specific, the 
way they had been promulgated throughout the Department 
sometimes gave managers the impression that they were just 
guidance and, therefore, not something that they needed to 
follow or should follow, but were suggestions.
    Mr. Johnson. Did you see any evidence of any emphasis on 
the compliance issue? I mean, did they have processes in place 
to identify lack of compliance and mitigating action once they 
discovered it?
    Ms. Finn. Our audit work was about 2 years ago and at that 
time, no, the process did not have a lot of structure and 
discipline to it.
    Mr. Johnson. Okay. Mr. Willemssen, you mentioned three 
areas, development of IT systems, security, and joint 
integration.
    Is it your opinion, and I thought you said so, I just want 
to clarify, that an architecture that clearly indicated how all 
of these different systems would fit together and a road map 
for integrating them would be a major step in the right 
direction to overcome those inadequacies?
    Mr. Willemssen. Absolutely, Mr. Chairman, absolutely 
critical to doing so. And I understand the magnitude of what 
the Chief Information Officer is facing. And given that 
magnitude, he probably has to take it in doable bites and look 
at the most critical functions and make sure he understands the 
architecture of that. And most importantly, where does he want 
to go.
    Mr. Johnson. Okay.
    Mr. Willemssen. And that is why we focused, for example, on 
the VA and DoD area, that jointly, they need to figure out 
where they want to go, figure out where they are, and then have 
a transition plan to get from here to there. That is what is 
currently missing.
    We are encouraged, though, by the recent announcement that 
the secretaries are committed to this, but you are right. 
Constant oversight by your Committee among others will go a 
long way to making sure that happens. Without that oversight, 
things can fall by the wayside.
    Mr. Johnson. Well, Ms. Finn mentioned compliance with 
processes and you talked about the lack of an architecture.
    Is it your sense that, Mr. Willemssen, inside the VA, do 
they really have an understanding of the software development 
life cycle and the major steps involved because you mentioned 
development specifically? Did you find in your analysis that 
there is understanding of the software development life cycle?
    Mr. Willemssen. It is a mix. With the size of the 
organization, there are elements that do understand the life 
cycle. There are elements who clearly, for example, understand 
the Software Engineering Institute's capability maturity model 
and are striving to do as best as possible within the 
parameters of the engineering disciplines within the model. But 
that is not prevalent throughout the organization----
    Mr. Johnson. Okay.
    Mr. Willemssen [continuing]. So that when you are going 
with any particular system development effort, it is somewhat 
hit or miss and, therefore, the software development processes 
may not be ingrained, but it may be ad hoc and chaotic. You may 
get lucky and you may have a group that knows what they are 
doing. On the other hand, you may not.
    Mr. Johnson. Did you see any indication or evidence that 
there is a formal program management or project management 
certification program within the VA with how their IT projects 
are run?
    Mr. Willemssen. I do not recall that, but that is something 
that Mr. Baker, I believe, is pushing very hard and that we 
would be supportive of. But we have not done work specifically 
on project management, but I think you are definitely on the 
right topic there because it continually comes up in the 
systems that we have reviewed.
    Mr. Johnson. It goes back to what I said earlier. I mean, 
if you do not know where you are going, any road will get you 
there and so we end up with what we have.
    We will probably come around for another second round of 
questions to you folks. I appreciate it.
    I will yield at this time to Mr. Donnelly.
    Mr. Donnelly. Thank you, Mr. Chairman.
    Mr. Willemssen, have you sat with the DoD and talked to 
them about this issue and asked what their positions are and 
what they plan to do?
    Mr. Willemssen. We have. We have also done an in-depth 
review of their AHLTA (Armed Forces Health Longitudinal 
Technology Application) System which is their own health care 
system. Again, I am encouraged by both secretaries committed to 
do something because without that, you are going to want to 
continue to go with your own Department's system.
    Mr. Donnelly. What do you plan your continuing role to be 
in making sure this progress continues to see that it is not 
two home teams doing their own thing?
    Mr. Willemssen. At this point, our plan would be to follow-
up on our outstanding recommendations that we made in our 
February report in those three barrier areas that I mentioned.
    And also before the hearing, Dr. Levin and I committed to 
meeting within the next 2 weeks to get further understanding of 
what is going on subsequent to the secretaries' commitment to 
pursue this aggressively.
    Mr. Donnelly. Do you have your own progress schedule for a 
timeline on this integration and this coming together so we can 
have a system that works across both departments and that work 
seamlessly with one another?
    Mr. Willemssen. We do not have a specific schedule other 
than following up on the recommendations and providing periodic 
progress reports to bodies such as this that provide oversight. 
So if I were to come here a year from now and report the same 
information, that would definitely say something.
    Mr. Donnelly. Do you have any idea cost-wise if both groups 
were on the same plan, following the same software and working 
together so the records come over seamlessly from DoD to VA 
that were able to track individuals, what kind of cost savings 
that would result in?
    Mr. Willemssen. We have not done the cost analysis. But 
when you look at the billions that are planned to be spent on 
each separately over the next many years, I think you can see 
the opportunities for savings are significant. You overlay on 
that plans that not only VA has but DoD and the rest of the 
Federal Government to significantly consolidate the massive 
number of data centers that are out there and you will have 
again tremendous cost savings.
    Mr. Donnelly. Ms. Finn, you have identified a number of 
programs that there is a lack of sufficient or qualified IT 
personnel.
    What can be done to address this problem in your judgment?
    Ms. Finn. This is the case I think where OI&T will have to 
have a concerted strategy and an implementation plan to address 
that issue.
    When Mr. Baker first started and he and I first met, he 
asked what do you think my biggest problem will be. And I said 
system development without a question and he agreed. And he has 
worked to address that.
    I will be able to tell you a little more specifically about 
what the Department needs to do later this year. We are 
planning to do an audit of OI&T's human capital management and 
we will probably be looking at their strategy and 
implementation for increasing their expertise in program 
management.
    Mr. Donnelly. And one final question is, from your 
perspective, what exactly has the VA done now to improve its 
ability to manage IT projects and what do you think is the most 
important thing they can do to improve that?
    Ms. Finn. They have taken two actions. One is the use of 
the Agile system development methodology which calls for 
incremental functionality little bits at a time and that allows 
a project to hopefully make better progress than the 
traditional waterfall method that, you know, assumes you have 
everything planned out before you start.
    And the second is the Program Management Accountability 
System, which is the oversight structure that OI&T uses to 
monitor the progress of all their system development efforts in 
the various projects.
    PMAS was somewhat of a departure for VA in that it provides 
an overarching look at system development. We have been doing 
some work to actually look at the implementation of the PMAS 
system and the discipline because, as you know, often the devil 
is in the details as to how well the oversight is implemented. 
And we will be issuing a report on that later this summer.
    Mr. Donnelly. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Johnson. Thank you.
    Ms. Finn, you mentioned the Agile implementation 
methodology. And I have used that myself and so I agree with 
you that it is a good way especially on big projects.
    However, you know, I am going to keep beating this horse 
until we get someone's attention. Architecture, Agile works 
well when you have a well-defined set of requirements, a well-
defined road map on where you are going to.
    Is it your opinion that Agile works well in environments 
where you really do not have that, where you do not know which 
way you are going?
    Ms. Finn. I do not think any software methodology can work 
if you do not really have an end game in mind to know what you 
are trying to develop. And I would think Agile has no more 
advantage in that situation than the waterfall method.
    Mr. Johnson. Sure. Okay.
    Mr. Willemssen, the Ranking Member just started talking 
about some staffing deficiencies.
    Do you feel that the VA OI&T staffing of over 7,100 people 
is appropriate and effective?
    Mr. Willemssen. Appropriate? We have not done a detailed 
analysis of all the staff, what their capabilities are, how 
they are deployed, what they are working on, so I would not 
venture a guess on that.
    I would say that based on my almost 20 years off and on of 
evaluating VA IT there are pockets of excellence and there are 
pockets where much additional work is needed. So it is hard to 
generalize.
    I think what the Inspector General's representative said 
here about taking a look at the human capital function within 
IT and seeing what kind of capabilities, what kind of 
certifications, what kind of project management discipline, 
that makes a lot of sense.
    And I think Mr. Baker would probably welcome such a review.
    Mr. Johnson. Okay. Shifting back just a little bit and 
either of you can respond to this question, what would prevent 
VA OI&T from fully implementing the information security 
program required under the Federal Information Security 
Management Act of 2002 (FISMA)?
    Ms. Finn. Big question there. No single thing comes to 
mind. Of course, we do review the information security posture 
annually under the requirements of FISMA. In fact, our report 
on 2010 should be available fairly soon.
    The biggest obstacle that I see is, and Mr. Baker may have 
a different thought on this, is VA's decentralized nature in 
that even with a centralized OI&T, a centralized information 
technology organization, you still need to have consistent 
implementation and disciplines out at many facilities.
    Your security is only as good as, you know, as each 
individual location. And it is a very cumbersome process to 
identify all of the issues and have the command and control 
structure needed from Washington to make sure all of the fixes 
are made and updated because information security is a daily 
requirement. You have to keep your patches. You have to keep 
your passwords.
    So it is the decentralized nature I believe is the big 
challenge and just the fact that you have to keep up with it 
every day in that environment.
    Mr. Johnson. Okay. Do you think developing technologies 
such as cloud computing and open source, even though the U.S. 
Chief Information Officer has cited security concerns, do you 
have concerns about pursuing that given the security issues 
that we have already talked about?
    Ms. Finn. Of course I have concerns. I was reading the 
Office of Management and Budget's strategies yesterday about 
cloud computing and I noted that they talked about establishing 
Federal clouds hopefully to provide better security That gives 
me a little more comfort than just going out to the commercial 
area. But I think even that environment will require a lot of 
monitoring and controls to ensure that it is secure.
    At VA, of course, we deal with a lot of personal 
information and so we want to make absolutely certain that it 
is secure.
    Mr. Willemssen. If I may, Mr. Chairman----
    Mr. Johnson. Absolutely.
    Mr. Willemssen [continuing]. I would echo that issue. We 
issued a report last year on the Federal Government's plans to 
move forward with cloud computing. We were especially concerned 
at that time at the lack of guidance addressing the security 
ramifications of going to the cloud.
    Since that time, there has been some guidance disseminated, 
but for an organization that has much sensitive data, you have 
to make that move very carefully and with a lot of controls in 
place with the provider of the service.
    Mr. Johnson. Mr. Willemssen, we talked a little bit about, 
and I agree with you, it is encouraging to see that the 
secretaries of the departments have committed to moving forward 
with this joint development integration.
    Can you explain to us why you think it took VA and DoD 
until March of this year to finally come to that commitment to 
joint development of that electronic health system?
    Mr. Willemssen. Growing pressure to do so. I think the 
frustration was getting too high. And I think that frustration 
was starting to boil over and I think both departments began to 
recognize that they had to do something, especially given again 
what you said earlier.
    We are a country that does not have a lot of excess funds 
to spend and you see the amount of money going into the health 
systems for DoD and VA and it looks like an easy opportunity to 
save some money and, oh, by the way, have better service to our 
servicemen and women and veterans. So this looks like an easy 
thing to do.
    It is the institutional and cultural resistance 
historically to doing it. That is why I think unless you have 
somebody at the secretary level driving this, it is going to be 
very difficult to accomplish because of those institutional and 
cultural barriers.
    Mr. Johnson. Yeah. Well, tough question here. What is your 
confidence level that, I mean, if they did not do this on their 
own out of their own capacity to see the need for it and they 
had to wait until there was so much pressure to do so, what is 
your confidence level that the departments are going to work 
well together and specifically how do you view the influence of 
each department over the Integrated Program Office in terms of 
moving the ball up the field and making progress because I 
still remain concerned about no timelines?
    I have yet to see, maybe it exists, but I have yet to see a 
project management or a program management plan that says who 
is committed to do what tactically.
    Mr. Willemssen. Absolutely. I agree with you. That is what 
we are looking for too. And I think if the secretaries' 
communique, as was mentioned earlier, is going to come out a 
week from now, those are the kind of details that we want to 
see and then hold the departments accountable to the details in 
that communique.
    Mr. Johnson. Yeah. We will be watching for that very 
closely as well. It should reveal some specificity around how 
we are going to pursue this. It is the right thing to do for 
America's veterans. It is the right thing to do for the 
taxpayers.
    With that, do either of you have any closing comments 
before we wrap up?
    Mr. Willemssen. No, sir. Thanks, Mr. Chairman.
    Mr. Johnson. All right. Well, my thanks to you then for 
joining us today. I appreciate your testimony.
    Ms. Regan, you did not get a chance to say anything. 
Anything on your mind?
    Ms. Regan. No. I am fine. Thank you.
    Mr. Johnson. Okay. Well, you are now excused.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include extraneous 
material. And seeing as I am not going to object to my own 
motion, that is so ordered.
    I want to thank all Members and witnesses for their 
participation in today's hearing and business meeting.
    This hearing is now adjourned. Thank you all.
    [Whereupon, at 11:14 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Prepared Statement of Hon. Bill Johnson, Chairman,
              Subcommittee on Oversight and Investigations
    Good morning. This hearing will come to order.
    I want to welcome everyone to today's hearing ``Reboot: Examining 
VA's IT Strategy for the 21st Century.''
    With an information technology budget exceeding three billion 
dollars annually, it is reasonable for the American taxpayer to expect 
the Office of Information and Technology at VA to effectively utilize 
available technology and provide the highest quality support in the 
Department's delivery of health care and benefits to veterans.
    As we will hear from the witnesses on both panels today, billions 
of dollars have been spent on IT at VA. However, veterans, the 
taxpayers, and Members of this Committee are left to wonder what has 
resulted from these expenditures. Have improvements been made? 
Certainly. Are the improvements and advancements in VA IT over the last 
10 years on par with the amount of time and taxpayer dollars put into 
the effort? Certainly not.
    The witnesses on today's second panel will help illuminate the 
magnitude of the money spent on IT over time. To name a few: $127 
million over 9 years on an outpatient scheduling system, with none of 
the planned improvements in place; suspension of the Strategic Asset 
Management, or ``SAM'' program, after failing to meet yet another 
milestone; and a $70 million overrun on a Wi-Fi installation contract.
    I also remain concerned that, as with past contracts and efforts, 
VA is not thoroughly vetting cost and risk analysis before undertaking 
new, large IT projects.
    While VA continues to push forward on cloud computing, its own 
Administration has not fully established the Federal guidelines for 
information security in cloud computing. In a health care environment 
such as VA's, I know that I would not want my personally identifiable 
information floating around in the ``cloud'', especially given a track 
record of data breaches that is less than stellar.
    We once again notice a history of poor acquisition and contract 
management at VA, a theme this Subcommittee is familiar with. Given the 
frequency of problems in IT contracts, we know there must be a 
significant degree of inexperience among the contracting staff, but we 
are also left to wonder whether supervisors in OI&T either don't know 
or don't care about these shortcomings. When IT needs are not clearly 
defined at the beginning of the process, it leads to cost increases and 
time delays down the road.
    With an IT staff of over seven thousand, I find it difficult to 
believe that knowledgeable IT professionals are not helping to create 
well-defined Requests for Proposal, a key element of a viable contract. 
When these contracts constantly have to be modified, it results in 
greater cost to the taxpayers and a delay of improved services to 
veterans.
    A crucial area for VA IT to meet expectations is the establishment 
of the joint Electronic Health Record, or ``EHR'', with DoD. Yet 
another overdue item for our active duty servicemembers and our 
veterans, the EHR has been pursued separately by the two departments. 
The result is billions of dollars spent, much of it duplicative, and no 
joint EHR. While I commend the Secretaries of both departments for 
finally committing this spring to cooperatively pursue this endeavor, I 
have lingering concerns that mistakes made in previous IT contracts 
could be repeated.
    For example, after releasing a final RFP on an Open Source 
custodial agent at the end of last month, VA is only allowing a 3-week 
turnaround for proposals to be submitted at the end of this week.
    It's not rocket science. The capabilities to do what needs to be 
done already exist. Hundreds of millions of dollars could have been 
saved in previous years by simply having a robust IT architecture and 
strategy in place. The needs are clearly defined: protect veterans' 
information, establish an electronic health record in conjunction with 
DoD, and implement stringent oversight of these and all undertakings in 
the Office of Information and Technology. I fully understand the 
challenges of managing information technology in a large organization. 
What I do not understand is why it has taken so long to get only so far 
at VA. The American people are watching, and expect VA to take care of 
our veterans as promised.
    I appreciate everyone's attendance at this hearing and I now yield 
the Ranking Member for an opening statement.

                                 <F-dash>
            Prepared Statement of Hon. Joe Donnelly, Ranking
    Democratic Member, Subcommittee on Oversight and Investigations
    We often criticize the VA for their inefficient and outdated IT 
systems. A perfect example of this was when the VA found themselves 
having to process education claim manually due to the legacy system 
being unable to process education claims after the passage of a modern 
education program. For this reason, I find it important and critical 
that the VA maintains and updated IT system that proves to be reliable 
and can be manipulated as new software is incorporated through the 
years ahead.
    The VA has decided that using Open Source model will provide a 
better outcome, with lower risks and lower cost. Their cooperation with 
the DoD on using Open Source is encouraging, in part because this 
cooperation is essential, there is a critical need to develop and 
electronic health record system, and because DoD has relied on Open 
Source in the past. Although there are multiple concerns that both the 
majority and the minority might share, the VA has reassured us that 
Open Source provides several benefits. But along with those benefits, 
making sure that veteran's personal information remains secure is 
critical.
    I also understand that contract management and weaknesses have 
overshadowed VA's efforts to keep up with the VA's IT infrastructure. 
Cost overruns, contract weaknesses, and unmet project time frames are 
just a few examples of the implications that can occur if there are no 
firm requirements in contracts, such was the case with the Wi-Fi 
awarded contract to Catapult, Ltd.
    What I am concerned about is making sure that first, the VA IT has 
an interoperable model in place; second, best practices should be in 
place from the private and public sector; and third, that new IT 
strategies have the best value for our veterans.
    Finally, I encourage the VA to keep staff updated on your efforts.

                                 <F-dash>
     Prepared Statement of Hon. Roger W. Baker, Assistant Secretary
      for Information and Technology and Chief Executive Officer,
   Office of Information and Technology, U.S. Department of Veterans 
                                Affairs
Introduction

    Chairman Johnson, Ranking Member Donnelly, Members of the 
Subcommittee: thank you for inviting me to testify regarding the 
Department of Veterans Affairs' (VA) Information Technology (IT) 
strategy for the 21st Century. I appreciate the opportunity to discuss 
VA's plans, actions, and accomplishments that will position VA's IT 
organization as a 21st Century leader in the Federal Government.
    I am pleased to be accompanied today by Peter Levin, Ph.D., VA's 
Chief Technology Officer.
    Through Secretary Shinseki's leadership, the VA continues to focus 
on the strategic goals VA established 2 years ago to transform VA into 
an innovative, 21st Century organization that is people-centric, 
results-driven, and forward-looking. These strategic goals seek to 
reverse ineffective decision-making, systematic inefficiency, and poor 
business practices in order to improve quality and accessibility to VA 
health care, benefits, and services; increase veteran satisfaction; 
raise readiness to serve and protect in a time of crisis; and improve 
VA internal management systems to successfully perform our mission. The 
Office of Information and Technology (OI&T), which I am honored to 
lead, proudly support our strategic goals as we rapidly deliver 
technology to transform VA.
    The VA IT enterprise is a massive single, consolidated network with 
152 hospitals, 791 community-based outpatient clinics (CBOC), 57 
benefits processing offices, and 131 cemeteries and 33 soldier's lots 
and monument sites. Our OI&T workforce numbers over 7,100, serving over 
300,000 VA employees and more than 10 million veterans. Within our $3.1 
billion FY 2011 budget, OI&T manages a technology profile of over 
314,000 desktop computers, 30,000 laptops, 18,000 blackberries and 
mobile devices, and 448,000 email accounts. These figures describe an 
IT enterprise that is certainly one of the largest consolidated IT 
organizations in the world.

Disciplines for 21st Century Information Technology

    Managing an organization of this size and scope requires 
disciplined management and processes. To instill those disciplines, VA 
implemented five major focus areas immediately after my confirmation. 
These five areas--customer service, product delivery, information 
security, operational metrics, and financial reporting--continue to 
guide our efforts in a disciplined and measurable way.

 1. Customer Service

    OI&T continues to build upon our excellent relationships with VA's 
Administrations (Veterans Health, Veterans Benefits, and National 
Cemeteries). We have worked hard to set a tone of cooperation that has 
made it possible for us to effectively address many complex problems at 
the second largest agency in the Federal Government. Thanks to my 
partners, Dr. Robert Petzel, Under Secretary for Health, Mr. Michael 
Walcoff, Acting Under Secretary for Benefits, and Mr. Steve Muro, 
Acting Under Secretary for Memorial Affairs, that same cooperative 
approach continues to spread throughout VA.

 2. Product Delivery
    IT is an enabler to the implementation of the Secretary's 16 
Transformational Initiatives, which cannot be executed without newly 
developed IT products. These initiatives are key to improving VA's 
services to Veterans, and IT investments have allowed us to deliver 
products or plan for on-time delivery of the following programs:

        <bullet>  Successful, on-time delivery of the critical GI Bill 
        project. VA successfully converted all processing of new Post-
        9/11 GI Bill claims to the Long Term Solution (LTS) prior to 
        the commencement of the Fall 2010 enrollment process. Since 
        installation, processing with the new system has been 
        excellent, with no significant ``bugs'' encountered. The 
        Veterans Benefits Administration claims processors like the new 
        system and find it easier and more efficient to use. By 
        dramatically changing its development processes, adopting the 
        Agile methodology for this project, VA also dramatically 
        changed its system development results;
        <bullet>  Veterans Benefits Management System (VBMS), in which 
        IT provides Veterans Benefits Administration the enabling 
        technology to break the claims backlog;
        <bullet>  The Blue Button program, in which IT provides the 
        systems and information security to allow Veterans to download 
        their currently available personal health information from 
        their MyHealtheVet account, allowing them to share their 
        personal health information with doctors outside the VA;
        <bullet>  The eBenefits portal (a joint DoD and VA service), 
        which is evolving to a ``one-stop shop'' for benefit 
        applications, benefits information and access to personal 
        information such as official military personnel documents;
        <bullet>  Veterans Relationship Management (VRM), in which IT 
        will provide the capability to improve Veterans access to VA 
        services and benefits through phone, web and email systems 
        enabling easier and more effective communications; and
        <bullet>  The Pharmacy Reengineering program that replaces 
        existing pharmacy software modules with new technology that 
        will enhance Pharmacy services, improve customer service and 
        enhance patient safety.

    As these examples illustrate, IT plays a pivotal role in the 
transformation of VA into a 21st Century organization as envisioned by 
the President and Secretary Shinseki.

  3. Information Security

    Ensuring the security of the large VA network and devices is vital. 
We have made substantial progress in information security since the 
challenges experienced in 2006 by instituting controls that now provide 
for remote access to VA resources for employees and selected business 
partners, and implementing a sound security strategy to facilitate 
secure data exchange with Department of Defense and private-sector 
health care organizations, and facilitating access to electronic health 
records for our veterans over the Internet. These efforts are 
instrumental in making the administration's vision towards a virtual 
lifetime health record possible.
    We have already made great strides with some efforts that will be 
discussed in greater detail below, including: visibility to the desktop 
to ensure compliance with security policies; visibility to every 
network device; strong user authentication; and medical device 
isolation architecture. It is vital to us that veterans feel confident 
that we are doing everything we can to secure their private 
information.

  4. Operational Metrics

    Our operations organization provides excellent service to our 
hospitals, benefits offices, and cemeteries. We now measure and publish 
key metrics that tell us how we are doing. Beginning in June of 2009, 
we started at the core, measuring network availability (which averages 
99.99 percent), Veterans Health Information Systems and Technology 
Architecture (VistA) system availability (99.95 percent), and help desk 
wait times. We have expanded these measurements to include a list of 
nearly 167 metrics covering aspects of our network, our service 
provision and our system/application provisioning that help us 
understand what works well and what does not. The ability to measure 
these key processes and adjust accordingly is central to continuous 
operational improvement--a hallmark of a mature operation and essential 
to any 21st Century IT organization.
    As an example, we recently completed our second enterprise-wide 
customer satisfaction survey, using the American Customer Satisfaction 
Index methodology, which allows us to compare our results to those of 
like organizations throughout government and industry. Our primary 
purpose in conducting this survey is to understand and address the 
issues that affect user satisfaction with IT services at each of our 
facilities. We showed substantial progress between the two surveys, 
increasing our satisfaction score from 67 to 71. For comparison 
purposes, our near-term target is to achieve a rating of 75, which 
would indicate we are in the top half of the ratings for similar 
organizations globally. VA also uses the ACSI Survey tool to monitor 
satisfaction with the award winning My HealtheVet Personal Health 
Record portal and our scores in this area (75) benchmark well with the 
E-Government Index (75).

  5. Financial

    Finally, we created a detailed financial plan for OI&T in both 2010 
and 2011, known as the Prioritized Operating Plan. This plan has two 
main purposes. First, it creates a vehicle for us to agree, with our 
customers, on what the high priority IT services and projects are, and 
allocate our resources to ensure success on the most important items. 
It also allows us to communicate, clearly and objectively, which 
projects and services will and will not be accomplished. Second, it 
allows us to track our expenditures, from plan to budget to spend to 
results, and know the business purpose for spending each dollar and 
then track the results we expect to obtain from the expenditure. For 
2011, that plan is over 1400 lines long.

VA IT is a Leader in Federal IT

    Our efforts in the five focus areas have produced results across 
the board-- results that are seen every day by each of our customers, 
from a VA employee at a hospital, benefits office, or cemetery, to the 
Secretary of Veterans Affairs, and to our most important customer, the 
American Veteran. VA IT is a leader in the Federal Government, and is 
transforming itself into a 21st Century IT leader by implementing 
innovative approaches to improve our results.
    Our goal is to be the best IT organization in the Federal 
Government, and comparable to large private-sector organizations. 
Achieving that goal means being a leader, and being a leader requires 
more than being good. It requires defining a path in advance of others, 
and boldly moving forward on that path. To that end, I will highlight a 
few areas where VA IT is, today, clearly leading the way for the 
Federal Government.

OMB's 25 point plan

    VA has been an early and rapid adopter of the elements of Office of 
Management and Budget's (OMB) 25 point plan for improving Federal IT. 
In fact, VA began pursuing many of the initiatives outlined in the 25 
point plan while the plan was being formulated. Consequently, VA was 
uniquely positioned to support the creation of many of the initiatives 
and become an ``early adopter.'' For example, VA had already begun work 
on Data Center Consolidation, and was able to provide insight and 
lessons learned on the process for many other Federal agency 
participants.
    Another initiative in which VA is ahead of the curve is in cloud 
computing, which we expect to increase efficiency through secure remote 
access to files and programs. For example, we have a large-scale, 
successful cloud program in the Post-9/11 GI Bill, with another 
starting development for VBMS.
    Finally, the VA adapted a key component of our Program Management 
Accountability System (PMAS), the ``strike'' meeting to become an early 
adopter of the program's intervention meetings OMB calls ``Techstats.'' 
Due to VA's forward thinking, implementation of many of the initiatives 
outlined in the 25 Point plan was seamless and fit within the plan's 
structures.

Transparency

    VA IT has been a leader in meeting the transparency goals of this 
administration. One key component of our transparency efforts are the 
monthly meetings I hold with the staff of the House and Senate 
Veterans' Affairs Committees. As you know, these meetings serve as an 
opportunity for VA to inform Congress about IT progress and issues at 
VA. Through these meetings we have developed a constant dialog that 
helps keep Congress informed and opens lines of communication.
    VA IT is also providing transparency into our development progress. 
Every increment of every development project is reported in the PMAS 
Dashboard, which I will discuss in more detail below, which is tied to 
the OMB dashboard. This gives OMB, Congress, and the public a clear 
view into VA's IT program management progress.
    VA's privacy breach report, discussed below, is another great 
example of VA's leadership in transparency. Our efforts to present to 
Congress and the public our data breaches each month has had the effect 
of limiting the number of breaches that have occurred, and helped our 
information security staff to better identify potential risks. In 
addition, the breach report is discussed on a teleconference with the 
media to ensure an even greater level of transparency.
    Shortly after the President's January 21, 2009 Freedom of 
Information Act (FOIA) Memorandum, VA publicized and implemented the 
Attorney General's FOIA Guidelines throughout the agency by prominently 
publishing access links on the VA's FOIA Web site at http://
www.foia.va.gov/. VA's Chief Information Officer and VA's Under 
Secretary for Health appeared in a video directed to all VA FOIA 
Officers to discuss the importance of FOIA and the implementation of 
the President's FOIA guidelines by ensuring any releasable items are 
rapidly made available to the public without requiring a FOIA request. 
VA has actively improved transparency by routinely posting information 
about VA Data Breaches. Other offices have also followed the lead and 
ensured transparency, i.e., VA Office of Finance (OF) posts information 
regarding VA purchase card holders (credit card) transaction data, 
First Class and Business Class Travel Reports, VA Civil Service 
Employee holiday pay data, Unclaimed Moneys Accounts data, VA's FY 2012 
President's Budget Submission, and VA's FY 2010 Highlights for the 
Citizen (Summary of Performance and Financial Information). High level 
contract award data is also posted without a formal request. VA's 
ASPIRE for Quality Initiative, a VA-wide program designed to document 
key measures of health care quality posts outcome information for acute 
care services, intensive care units, outpatient services, safety and 
process measures, and indicators of how successful each VA Medical 
Center has been in meeting its quality goals.

PMAS

    In June of 2009, VA introduced the Program Management 
Accountability System (PMAS). The PMAS process has transformed product 
delivery at the VA. Before the implementation of PMAS, approximately 
283 development projects at VA met their milestone dates an estimated 
30 percent of the time. This is an estimate, as IT development projects 
simply were not tracked to their committed dates prior to PMAS. Today, 
VA has 107 active development projects, tracked in real-time through a 
project database and dashboard, that are meeting their milestone dates 
approximately 75 percent of the time. I know of no other Chief 
Information Officer (CIO), government or private sector, who has this 
level of insight into such a large portfolio of development projects. 
VA is a true trailblazer in product delivery, as I can assure you that 
most IT development organizations, public or private sector, would be 
ecstatic with meeting 75 percent of their committed milestones.
    PMAS is important for two reasons. Most importantly, we are able to 
deliver on the transformational capabilities VA requires. PMAS also 
ensures we meet this administration's goal of ensuring that every 
taxpayer dollar is well spent. In 2010, VA had a cost avoidance of 
nearly $200 million by eliminating poorly performing projects and 
restructuring many others to lower risk, reduce spend rates, and 
implement incremental development project plans.
    PMAS helps VA manage our contracts better by ensuring that proper 
planning is done prior to beginning development on an increment. That 
includes having the contracting officer and counsel as part of the 
Integrated Project Team during the planning phase. During the planning 
phase of a project, the work is broken into increments that deliver 
capability to the customer in 6 months or less. As soon as the first 
increment is planned in sufficient detail, the project can begin 
development on that increment while continuing to plan future 
increments. By using PMAS criteria, we ensure that we have good plans 
and necessary resources in place before a project increment goes 
active. Once the project is active, it will receive a strike whenever 
an increment milestone is missed. A project can receive no more than 
three strikes before it is stopped and forced to re-evaluate the 
requirement and the plan. While project failures can still occur, we 
manage the timeline and work so closely that projects cannot fail for 
years on end before being stopped.

Agile development

    A primary driver of our success under PMAS has been the adoption of 
incremental development. Every project at VA, without exception, must 
deliver functionality to its users at least every 6 months. Several of 
our most important projects, including the GI Bill and VBMS, have 
adopted Agile development methodologies. Whereas PMAS addresses the 
planning and management aspects of short, incremental delivery, the 
Agile development methodology provides the technical management 
guidance of how to turn project requirements into working software 
quickly and in collaboration with the customer.
    Agile development is important to the VA because it encourages 
continuous input from our customers. In agile projects, all the 
development priorities are set by the customer, which ensures that the 
work is performed in the order of importance. To increase the 
likelihood of success, large projects are broken down into small but 
valuable increments, each of which could potentially be a candidate for 
release. This is consistent with our PMAS delivery requirements. 
Lastly, agile development requires continuous quality assurance 
throughout the entire development effort, further ensuring high quality 
deliverables.
    Agile software development methodologies are an effective means of 
improving the predictability, quality, and transparency of software 
products and their development. At the core of Agile is the iterative 
work process. Business problems are broken down into small increments 
of delivery that are tangible products that can be reviewed and 
verified regularly by business stakeholders. By constantly 
incorporating feedback, the software that is essential to solving the 
business problem is created in partnership with stakeholders and any 
miscommunications, revisions, or changes in business needs can be 
accommodated quickly and with little rework. The quality of software is 
kept high throughout the development process as the product in 
development is kept as close to a production-ready state as possible 
with each release increment. In addition, prior to the start of each 
increment, business stakeholders and the development team agree upon 
which features or requirements are to be satisfied during that 
increment thus ensuring that the most important work is completed 
first.
    Contrary to popular belief, the successful Agile program requires 
great rigor as it is essentially a process based on statistical 
analysis. Every work product (software or otherwise) is defined, broken 
down and estimated. As work progresses, these work products are 
carefully tracked on a daily basis and results of progress are 
published to the team and stakeholders (and any other authorized, 
interested party) to provide complete transparency. The result of this 
hyper-transparency is that problems in the development process are 
identified early and changes, regardless of their origin, can be 
accommodated quickly and efficiently.

Information Security

    To vastly improve our information security posture, we have 
achieved the goal of providing visibility to every desktop on the 
network. Visibility to the desktop allows the CIO and our Information 
Security Team the ability to see, for every machine on the network, 
what software is installed, whether security policies are met and what 
vulnerabilities exist--that's more than 314,000 desktops and more than 
30,000 laptops reviewed for issues each day. We are easily able to 
identify outliers and enforce compliance on computers that do not meet 
our network security requirements.
    In our continued effort to further enhance our security posture, we 
will gain visibility to all servers in the VA environment and implement 
a strong authentication solution for system administrators by September 
2011. In addition to gaining visibility to the server computing domain, 
VA will take the additional step of gaining increased visibility of 
network infrastructure devices. Strong authentication coupled with 
visibility all the way down to the end user desktop is first-rate for 
an organization the size of VA and stands to be the one of the largest 
deployments ever made of security and network management software in a 
centralized and consolidated network environment. When completed, the 
VA will have unmatched near real time security situational awareness of 
its computing resources, consisting of more than three quarters of a 
million devices.
    We have also achieved full implementation of our medical device 
isolation architecture, which is essential to mitigating security 
vulnerabilities in our medical devices. The isolation architecture 
allows us to localize virus outbreaks in populations where providing 
protection proves more difficult for equipment such as medical devices, 
by using virtual local area networks and access control lists. These 
technologies allow us to easily identify threats and vulnerabilities 
and quarantine them to prevent viruses from spreading across the VA 
network.
    Our achievements on visibility to the desktop and our medical 
device isolation architecture put us well ahead of most Federal 
organizations, and on par with well managed private-sector 
organizations. Our ability to provide immediate response to 
vulnerabilities and threats within our enterprise, as well as enacting 
a proactive approach to centralized monitoring, reporting, compliance 
validation and providing maximum service availability, is quickly 
establishing VA as a model of excellence for the rest of the Federal 
Government.

Protecting Personal Private Information

    While we have made important strides in reducing the number of data 
breaches that occur, VA has led the way in both responding to 
incidents, and providing transparency when reporting data breaches. Our 
Incident Resolution Team compiles a comprehensive report detailing 
every reported data breach on a daily and weekly basis. The reports are 
then discussed with the Data Breach Core Team which is made up of 
representatives from the Office of General Counsel, Veterans Health 
Administration, Veterans Benefit Administration, National Cemetery 
Administration and VA Central Office staff offices. At the end of each 
month, our Incident Resolution Team compiles a comprehensive report 
detailing every reported data breach, the circumstances of the breach, 
the number of Veterans affected, the steps taken to remedy the 
situation, and any pertinent follow-up information. This information is 
submitted to Congress, and is also posted publicly on the VA Web site. 
After its publication, I hold a press conference to discuss the 
breaches in an open, transparent manner. The number of facilities and 
the complex IT environments at VA present unique security and privacy 
challenges. VA's Incident Resolution Team consistently monitors and 
responds to every privacy or security event, no matter if it deals with 
one Veteran or thousands. The team members are considered experts in 
their field, and have assisted other government agencies individually 
and spoken at Federal IT and privacy events.

VLER

    In April 2009, President Obama charged the Secretary of Defense and 
Secretary of Veterans Affairs to create a Virtual Lifetime Electronic 
Record (VLER) to bring together the plethora of systems. This was done 
in order to create a seamless way for servicemembers, Veterans and 
those who support and care for them to access and manage benefits and 
care from the day they enter military service and throughout their 
lives. VLER itself is not a ``system'', but rather a business and 
technical redesign initiative that establishes the interoperability and 
communication environment necessary for DoD, VA and other public and 
private partners to securely exchange information. The result will 
improve health, benefits delivery and personnel activities by enabling 
providers to easily access the information they need. In this way, VLER 
is enabling health care and benefit providers to proactively deliver 
the full continuum of services and benefits Veterans have earned 
through several capability areas that are brought on-line in a measured 
approach.
    The VLER initiative ensures doctrine, policies, organizational 
structures, personnel training and IT solutions converge to create an 
environment of information transparency that improves the quality of 
life for Veterans and servicemembers. The benefits of VLER are already 
being felt by Veterans and servicemembers around the country in many 
different ways.
    VLER is now being used to support the exchange of health care 
information between DoD, VA and private health care providers in San 
Diego, CA; Hampton Roads and Richmond, VA; and Spokane, WA; and 
Asheville, NC areas. The capability delivered at these pilot sites will 
become more robust over time and expand to include six additional 
regions throughout the country by the end of this fiscal year. In 2012, 
we will leverage the tools and lessons learned in these 11 areas to 
provide this clinical encounter support to health care providers who 
care for Veterans throughout the entire United States.
    VLER and the further expansion of the eBenefits portal will empower 
Veterans and servicemembers by enabling them to access their 
information, including health care records; benefit applications, 
benefits information, and other personal information through an 
interactive web portal. The eBenefits portal is a rapidly growing joint 
VA/Department of Defense (DoD) service with more than 278,000 
registered users as of March 31, 2011. As VLER continues to mature, it 
will enable the eBenefits portal to provide servicemembers and Veterans 
more capabilities, including accessing their official military 
personnel documents, viewing the status of their disability 
compensation claim, updating direct deposit information for certain 
benefits, and obtaining a VA guaranteed home loan Certificate of 
Eligibility. The eBenefits portal effectively bridges the conversion 
from active duty to Veteran status by allowing servicemembers to retain 
the same login information they had as an active duty participant. This 
simple change is critical as it realizes the goal for the VA to be 
Veteran-centric.
    VLER will provide on-line access to all eligibility information, 
``Notice of Death'' reporting, and enhanced support of final honors and 
memorial benefits under the National Cemetery Administration. Redesign 
and modernization of cemetery IT systems will include great 
collaboration with the Department of Defense.
    VLER should reduce the cost of the delivery of services, increases 
efficiency of operations, reduces cycle times for benefits delivery, 
contributes to the elimination of homelessness, reduces claims backlogs 
by delivering information sharing capabilities, increases access to 
benefits by connecting data owners and data users; and, increases the 
quality and effectiveness of services provided to Veterans and 
servicemembers. There are certainly obstacles to achieving these lofty 
goals, but we are optimistic that VLER is making progress to meet the 
President's vision for the future.

Open Source

    The VistA Electronic Health Record (EHR) system is a proven and 
essential element of VA's ability to provide Veterans with high quality 
health care and control health care costs. In part because of VistA, 
VHA has excelled in the last 15 years in both areas. Independent 
studies have pegged the rate of return on VA's investments in VistA at 
about $2 returned for every dollar invested.
    While the current VistA EHR system meets or exceeds the 
capabilities currently available from commercial EHR vendors, low 
investment in VistA over the last decade has eroded its standing from 
the once-clear clear market leader to being merely competitive. While 
VA clinicians express strong support and preference for VistA as a 
clinical tool, they are also vocal and unanimous in calling for us to 
re-invigorate the innovation that made VistA the best EHR system 
available.
    Clearly, the private sector must play a role in that innovation. 
The size of private-sector investment and the rate of innovation in the 
commercial EHR sector far exceeds the government's ability to produce 
timely, cost-effective EHR products.
    VA estimates the cost of replacing VistA with an existing 
commercial package at $16 billion, based both on VA-commissioned 
independent validation exercise and on the real-world experiences of 
Kaiser Permanente. Published reports say that Kaiser spent $4 billion 
implementing a commercial off-the-shelf EHR system in their 36 
hospitals and supporting facilities. Based on size of VA relative to 
Kaiser (VA has 153 hospitals), $16 billion is a reasonable estimate.
    To avoid those costs, and to find a way to involve the private 
sector in modernizing VistA, the VA is turning to Open Source. Open 
source software (OSS) began as the ``free software'' initiative in the 
early 1980's, though the word free in this context is ambiguous. In 
this case, it should be thought of as free speech. EHR users from 
across the community are free to comment and contribute to the 
evolution of the code base, and VA is free to accept or reject any of 
those contributions.
    In practice, Open Source has proven to be a powerful method of 
producing production quality software. Market leading products such as 
Unix, Linux, Netscape, Mozilla, Apache, and many others are the result 
of Open Source software approaches. And while key product elements such 
as licensing, cost, security, etc. are different with an Open Source 
product, they are neither better nor worse. Open source methodologies 
have been proven many times in high-reliability production environments 
in the private sector to deliver products that meet or exceed the 
quality and robustness of proprietary and Government off the Shelf 
(GOTS) products.
    VA has spent more than a year conducting a very deliberative 
process to examine the implications of Open Source for VistA. We have 
seen two substantial studies on the topic contributed by the private 
sector and academia. We have consulted with hundreds of organizations, 
and thousands of individuals. We have conducted three Requests for 
Information (RFIs), and received numerous papers, emails, and comments. 
Our path forward with Open Source has been broadly advised and highly 
transparent, and is certainly much the better for it.
    VA expects that the rate of innovation and improvement in VistA can 
be increased without increasing our current budget by better involving 
the private sector (and true private-sector practices) in both the 
governance and development of the VistA system through Open Source. To 
that end, we have released a Request for Proposal to establish an Open 
Source ``Custodial Agent,'' to run the Open Source community. Our 
estimate of the costs of establishing the Custodial Agent are less than 
$10 million per year.

Conclusion

    Mr. Chairman, over the last 2 years, VA's IT organization has made 
many significant improvements and had many successes, but there are 
numerous challenges ahead. We are solidly on the path that we must 
follow to achieve our ultimate goal of being a leader in Federal IT. 
But I believe it prudent to reiterate the words from my confirmation 
testimony that are still true today: ``There is no easy path, no simple 
answer, and no short-cut solution to creating a strong IT capability at 
VA. Achieving this will require hard work, disciplined management, and 
honest communications.'' Mr. Chairman, Ranking Member Donnelly, and 
Members of this Subcommittee, I am committed to continuing that work. 
Thank you for your continued support of Veterans, their families and 
survivors, of VA, and of our efforts to transform VA IT. My colleague 
and I are prepared to answer any questions you and other Members of the 
Subcommittee may have.

                                 <F-dash>
       Prepared Statement of Belinda J. Finn, Assistant Inspector
    General for Audits and Evaluations, Office of Inspector General,
                  U.S. Department of Veterans Affairs
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to discuss the Office of Inspector General's (OIG) findings 
regarding the Department of Veterans Affairs' (VA) management of its 
information technology (IT) projects. I am accompanied today by Maureen 
T. Regan, Counselor to the Inspector General.

BACKGROUND

    The use of IT is critical to VA providing a range of benefits and 
services to veterans, from medical care to compensation and pensions. 
If managed effectively, IT capital investments can significantly 
enhance operations to support the delivery of VA benefits and services.
    However, when VA does not properly plan and manage its IT 
investments, they can become costly, risky, and counterproductive. As 
we have reported, IT management at VA is a longstanding high-risk area. 
Historically, VA has experienced significant challenges in managing its 
IT investments, including cost overruns, schedule slippages, 
performance problems, and in some cases, complete project failures. 
Some of VA's most costly failures have involved management of major IT 
system development projects awarded to contractor organizations.

IT GOVERNANCE CHALLENGES

    In 2009, we provided an overarching view of VA's structure and 
process for IT investment management (Audit of VA's Management of 
Information Technology Capital Investments, May 29, 2009). As part of 
the audit, we examined VA's realignment of its IT program from a 
decentralized to a centralized management structure. The realignment 
was to provide greater accountability and control over VA resources by 
centralizing IT operations under the management of the Chief 
Information Officer (CIO) and standardizing operations using new 
processes based on industry best practices--goals that have only 
partially been fulfilled.
    We reported that the ad hoc manner in which the Office of 
Information and Technology (OI&T) managed the realignment inadvertently 
resulted in an environment with inconsistent management controls and 
inadequate oversight. Although we conducted this audit more than 2 
years after VA centralized its IT program, senior OI&T officials were 
still working to develop policies and procedures needed to effectively 
manage IT investments in a centralized environment. For example, OI&T 
had not clearly defined the roles of IT governance boards responsible 
for facilitating budget oversight and IT project management.
    Further, in September 2009, we reported that VA needed to better 
manage its major IT development projects, valued at that time at over 
$3.4 billion, in a more disciplined and consistent manner (Audit of 
VA's System Development Life Cycle Process, September 30, 2009). In 
general, we found that VA's System Development Life Cycle (SDLC) 
processes were adequate and comparable to Federal standards. However, 
OI&T did not communicate, comply with, or enforce its mandatory 
software development requirements. OI&T did not ensure that required 
independent milestone reviews of VA's IT projects were conducted to 
identify and address system development and implementation issues. Once 
again, we attributed these management lapses to OI&T centralizing IT 
operations in an ad hoc manner, leaving little assurance that VA was 
making appropriate investment decisions and best use of available 
resources. Moreover, VA increased the risk that its IT projects would 
not meet cost, schedule, and performance goals, adversely affecting 
VA's ability to timely and adequately provide veterans health services 
and benefits.
    These audits demonstrated that OI&T needed to implement effective 
centralized management controls over VA's IT investments. Specifically, 
we recommended that OI&T develop and issue a directive that 
communicated the mandatory requirements of VA's SDLC process across the 
Department. We also recommended that OI&T implement controls to conduct 
continuous monitoring and enforce disciplined performance and quality 
reviews of the major programs and projects in VA's IT investment 
portfolio. Although OI&T concurred with recommendations and provided 
acceptable plans of actions, OI&T's implementation of the corrective 
actions is still ongoing. For example, OI&T is reviewing for approval 
the draft governance board charters and plans to issue a VA directive 
mandating Program Management Accountability System (PMAS) compliance 
once version 3.0 of the guide is developed. PMAS is VA's new IT 
management approach that focuses on achieving schedule objectives while 
the scope of functionality provided remains flexible.

PROJECT MANAGEMENT SHORTFALLS

    Over the past 2 years, our audit work on several IT system 
development projects has identified themes as to why VA has continued 
to fall short in its IT project management. These issues include 
inadequate project and contract management, staffing shortages, lack of 
guidance, and poor risk management--issues that have repeatedly 
hindered the success of IT major development projects undertaken by 
OI&T.

VA's Replacement Scheduling Application

    In August 2009, we reported that the Replacement Scheduling 
Application (RSA) project failed because of ineffective planning and 
oversight (Review of the Award and Administration of Task Orders Issued 
by the Department of Veterans Affairs for the Replacement Scheduling 
Application Development Program, August 26, 2009). RSA was a multi-year 
project to replace the system the Veterans Health Administration used 
to schedule medical appointments for VA patients. Lacking defined 
requirements, an IT architecture, and a properly executed acquisition 
plan, RSA was at significant risk of failure from the start. We 
suggested that VA needed experienced personnel to plan and manage the 
development and implementation of complex IT projects effectively. A 
similar suggestion was made in an earlier report in June 2009, where we 
noted that VA needed to place greater emphasis on training VA personnel 
to manage IT enterprise development projects rather than continuing to 
rely primarily on external organizations and contractors to manage 
these projects. We believe this condition still exists today and until 
corrected, VA will struggle to overcome challenges managing its IT 
investments. (Review of Interagency Agreement between the Department of 
Veterans Affairs and Department of Navy, Space and Naval Warfare 
Systems Center (SPAWAR), June 4, 2009.) We also suggested that a system 
to monitor and identify problems affecting the progress of projects 
could support VA's leadership in making effective and timely decisions 
to either redirect or terminate troubled projects. PMAS is currently 
the Department's approach to implementing this suggestion.

Financial and Logistics Integrated Technology Enterprise

    In September 2005, VA began developing the Financial and Logistics 
Integrated Technology Enterprise (FLITE) program to address the 
longstanding need for an integrated financial management system. As a 
successor to the failed Core Financial and Logistics System (CoreFLS), 
FLITE was a multi-year development effort comprised of three 
components: an Integrated Financial Accounting System (IFAS), Strategic 
Asset Management (SAM), and a Data Warehouse. However, as we reported 
in September 2009, program managers did not fully incorporate lessons 
learned from the failed CoreFLS program to increase the probability of 
success in FLITE development (Audit of FLITE Program Management's 
Implementation of Lessons Learned, September 16, 2009). For example, 
critical FLITE program functions were not fully staffed, non-FLITE 
expenditures were improperly funded through the FLITE program, and 
contract awards did not comply with competition requirements. We 
recommended that FLITE program managers develop written procedures to 
manage and monitor lessons learned and expedite actions to ensure full 
staffing of the FLITE program.

Audit of the FLITE Strategic Asset Management Pilot Project

    Our report on the SAM pilot project disclosed that FLITE program 
managers did not take well-timed actions to ensure VA achieved cost, 
schedule, and performance goals. Further, the contractor did not 
provide acceptable deliverables in a timely manner (Audit of the FLITE 
Strategic Asset Management Pilot Project, September 14, 2010). Once 
again, we identified instances where FLITE program managers could have 
avoided mistakes by paying closer attention to lessons learned from the 
CoreFLS effort.
    Specifically, FLITE program managers:

        <bullet>  Awarded a task order on April 21, 2009, to General 
        Dynamics for implementation of the SAM pilot project, even 
        though the FLITE program suffered from a known shortage of 
        legacy system programmers critical to integration efforts 
        required to make FLITE a success.
        <bullet>  Did not clearly define FLITE program and SAM pilot 
        project roles and responsibilities, resulting in confusion and 
        unclear communications between VA and General Dynamics. 
        Contractor personnel indicated that they received directions 
        and guidance from multiple sources. One of their biggest 
        obstacles was trying to overcome the lack of one clear voice 
        for VA's FLITE program.
        <bullet>  Did not ensure that the solicitation for the SAM 
        pilot project clearly described VA's requirements for SAM end-
        user training. As such, VA contractually agreed to a training 
        solution that did not meet its expectations. General Dynamics 
        subsequently revised its training approach to meet VA's needs, 
        but at a total cost of $1,090,175, which was more than a 300 
        percent increase from the original $244,451 training cost.
        <bullet>  Did not always effectively identify and manage risks 
        associated with the SAM pilot project even though inadequate 
        risk management had also been a problem with the failed 
        CoreFLS. Specifically, FLITE program managers did not take 
        steps early on to ensure that the contractor participated in 
        the risk management process and that the Risk Control Review 
        Board adequately mitigated risks before closing them.

    Because of such issues, in early 2010 VA was considering extending 
the SAM pilot project by 17 months (from 12 to 29 months), potentially 
more than doubling the original contract cost of $8 million. We 
recommended that VA establish stronger program management controls to 
facilitate achieving cost, schedule, and performance goals, as well as 
mitigating risks related to the successful accomplishment of the SAM 
pilot project. (SAM was suspended in March 2011 for not meeting user 
requirements. Further details are discussed below.)

Review of Alleged Improper Program Management within the FLITE 
        Strategic Asset Management Pilot Project

    This report, in response to a hotline allegation, disclosed that 
FLITE program managers needed to improve their overall management of 
the SAM pilot project (Review of Alleged Improper Program Management 
within the FLITE Strategic Asset Management Pilot Project, September 7, 
2010). FLITE program managers did not develop written procedures that 
clearly defined roles and responsibilities, provide timely guidance to 
program and contract staff, or foster an effective working environment 
within the FLITE program. FLITE program managers also did not ensure 
certain elements considered necessary for a successful software 
development effort, such as ``to be'' and architectural models were 
included as project deliverables in the FLITE program. In general, we 
recommended that VA strengthen project management controls to improve 
the SAM pilot, beta, and national deployment projects.
    New Office of Management and Budget (OMB) guidance on financial 
systems IT projects, issued on June 28, 2010, also had a major impact 
on the FLITE program. OMB issued the guidance because large-scale 
financial system modernization efforts undertaken by Federal agencies 
have historically led to complex project management requirements that 
are difficult to manage. Moreover, by the time the lengthy projects are 
finished, they are technologically obsolete. Consequently, OMB directed 
all Chief Financial Officer Act agencies immediately to halt the 
issuance of new procurements for financial system projects until it 
approves new project plans developed by the agencies. In July 2010, 
VA's Assistant Secretary for Information and Technology announced 
termination of the IFAS and Data Warehouse portions of FLITE. In March 
2011, the SAM pilot project, the final component of the FLITE program, 
was suspended just weeks before it was scheduled for deployment. SAM 
had received its ``third strike'' in the PMAS review process for 
failing user acceptance testing, which indicated that SAM was not ready 
for live operation. As of March 2011, program managers estimated 
obligations of about $126 million for the FLITE program; of that 
amount, the SAM project represented approximately $40 million.

GI Bill Long Term Solution

    In September 2010, we reported that OI&T's plan for deployment of 
the GI Bill Long Term Solution (LTS) was effective in part (Audit of 
VA's Implementation of the Post-9/11 GI Bill Long Term Solution, 
September 30, 2010). LTS is a fully automated claims processing system 
that utilizes a rules-based engine to process Post-9/11 GI Bill Chapter 
33 veterans' education benefits.
    OI&T developed and deployed both LTS Releases 1 and 2 on time. 
Lacking the management discipline and processes necessary to control 
performance and cost in project development, OI&T has relied upon PMAS 
to achieve project scheduling goals. With this schedule-driven 
strategy, OI&T has been able to satisfy users and incrementally move VA 
forward in providing automated support for education benefits 
processing under the Post-9/11 GI Bill.
    However, OI&T's achievement of the time frames for LTS Releases 1 
and 2 required that VA sacrifice much of the system functionality 
promised. Specifically, due to unanticipated complexities in developing 
the system, OI&T deployed Release 1 as a ``pilot'' to approximately 16 
claims examiners, with the functionality to handle only 15 percent of 
the Chapter 33 education claims that the Veterans Benefits 
Administration anticipated processing. Release 2 caught up on the 
functionality postponed from Release 1, while providing the capability 
to process 95 percent of all Chapter 33 education claims. However, due 
to data structure and quality issues that still had to be overcome, 
users could not make use of all of the functionality provided through 
Release 2 and were able to process only 30 percent of all Chapter 33 
education claims. In addition to these performance issues, OI&T did not 
have processes in place to track actual LTS project costs.
    Following Release 3 that allowed VA to automate input of college 
enrollment information, OI&T deployed LTS Release 4 in accordance with 
the original delivery schedule of December 2010. OI&T recently deployed 
LTS Release 4.2 and has plans for two additional releases, tentatively 
scheduled for June and November 2011, to accommodate recent revisions 
to the Post-9/11 GI Bill. These LTS releases should provide 
enhancements such as automated scheduling for future housing 
allocations, and claims processing for licensing and certification and 
national tests. Any delays in providing the promised functionality 
could require continued manual processing, which could in turn delay 
payment of GI Bill benefits to veterans.
    In the absence of effective performance and cost controls, OI&T 
runs the risk that future LTS releases may continue to meet schedule, 
but at the expense of performance and cost project goals. We 
recommended that OI&T improve LTS management by conducting periodic 
independent reviews to help identify and address system development and 
implementation issues as they arise. We also recommended that OI&T 
adopt cost control processes and tools to ensure accountability for LTS 
costs in accordance with Federal IT investment management requirements. 
OI&T concurred with our recommendations and provided acceptable plans 
of action, but implementation of corrective actions such as putting 
independent oversight reviews into place is still ongoing.

Veterans Services Network

    In February 2011, we reported that the Veterans Services Network 
(VETSNET) program faces the continuing challenge of managing competing 
requirements and new systems initiatives that have repeatedly changed 
the scope and direction of the program (Audit of the Veterans Service 
Network, February 11, 2001). Since 1996, VA has been working on this 
effort to consolidate compensation and pension benefits processing into 
a single replacement system. However, the repeated changes have 
adversely impacted schedule, cost, and performance goals over the life 
of VETSNET development. Given a loss of focus concerning the end goals 
of the program, VA's plans and time frames for retiring the aging 
Benefits Delivery Network and migrating all entitlement programs to the 
VETSNET Corporate Database have become unclear. Work to meet original 
program objectives has been extended by nearly 5 years. In 2009, VA 
reported a revised cost estimate of $308 million through 2012, more 
than two times an amount previously projected in 2006.
    Further, frequently changing business requirements have 
necessitated additional VETSNET software releases. Because software 
change controls and testing have not been adequate to ensure proper 
system functionality, software rework and rollback of installation 
packages have been required to correct defects, and planned 
functionality enhancements have been delayed. We recommended that VA 
align resources and establish a schedule for accomplishing the original 
goals of VETSNET in the near term. We also recommended that VA 
implement improved processes to address software development 
deficiencies.

IT ACQUISITION AND CONTRACT MANAGEMENT WEAKNESSES

    In response to a hotline complaint, we reviewed the contract 
awarded to Catapult Technology, Ltd., for the installation of wireless 
fidelity (Wi-Fi) services at 236 VA sites (Review of Allegations of 
Acquisition Planning Weaknesses and Cost Overruns on the Contract 
Awarded to Catapult Technology, Ltd., March 31, 2011). The complainant 
made several allegations regarding the award and administration of the 
contract. Our review substantiated all of the allegations except one, 
and partially substantiated the remaining allegation.
    We determined that the time frames established to plan, solicit, 
and award the contract were unreasonable. VA did not establish firm 
requirements and issued a Statement of Objectives that lacked the 
detail needed for vendors to submit reasonable, firm fixed-price 
proposals. Because of inadequate planning and incomplete information 
regarding requirements, VA processed modifications that caused contract 
costs to increase significantly; the current contract costs are 
projected at $161.5 million, which is a $70.5 million (77 percent) 
increase in contract costs.
    VA processed modifications adding additional sites; however, the 
contract had no provision that permitted VA to increase the number of 
sites. We also determined that VA was improperly paying Catapult on a 
milestone basis rather than on a completed site basis according to the 
contract terms. This was not only inconsistent with the contract, it 
was also inconsistent with the information provided to vendors during 
solicitation. The Office of Acquisitions and Logistics concurred with 
all our findings and recommendations and terminated the contract.

CONCLUSION

    VA continues to rely on IT advancements to provide better services 
to our Nation's veterans. Historically, VA has struggled to manage IT 
developments that successfully deliver desired results within cost, 
schedule, and performance objectives. OI&T recently implemented PMAS to 
strengthen IT project management and improve the rate of success of 
VA's IT projects. We are currently conducting an audit to determine 
whether OI&T has planned and implemented PMAS with the management 
controls needed for effective oversight of the Department's IT 
initiatives. Specifically, we are examining PMAS data reliability, 
project cost tracking, and guidance and processes for ensuring project 
compliance with the oversight approach. Our audit results should 
provide valuable information to VA and Congress as VA moves forward in 
managing its technology investments. We expect to issue a final report 
this summer.
    Mr. Chairman, this concludes my statement. We would be pleased to 
answer any questions that you or other Members of the Subcommittee may 
have.

                                 <F-dash>
      Prepared Statement of Joel C. Willemssen, Managing Director,
     Information Technology, U.S. Government Accountability Office
         INFORMATION TECHNOLOGY: Department of Veterans Affairs
                  Faces Ongoing Management Challenges
                             GAO HIGHLIGHTS
Why GAO Did This Study

    The use of information technology (IT) is crucial to helping the 
Department of Veterans Affairs (VA) effectively serve the Nation's 
veterans, and the department has expended billions of dollars annually 
over the last several years to manage and secure its information 
systems and assets. VA has, however, experienced challenges in managing 
its IT. GAO has previously highlighted VA's weaknesses in managing and 
securing its information systems and assets.
    GAO was asked to testify on its past work on VA's weaknesses in 
managing its IT resources, specifically in the areas of systems 
development, information security, and collaboration with the 
Department of Defense (DoD) on efforts to meet common health system 
needs.

What GAO Recommends

    In previous reports in recent years, GAO has made numerous 
recommendations to VA aimed at improving the department's IT management 
capabilities. These recommendations were focused on: improving two 
projects to develop and implement new systems, strengthening 
information security practices and ensuring that security issues are 
adequately addressed, and overcoming barriers VA faces in collaborating 
with DoD to jointly address the departments' common health care 
business needs.

What GAO Found

    Recently, GAO reported on two VA systems development projects that 
have yielded mixed results. For its outpatient appointment scheduling 
project, VA spent an estimated $127 million over 9 years and was unable 
to implement any of the planned capabilities. The application software 
project was hindered by weaknesses in several key management 
disciplines, including acquisition planning, requirements analysis, 
testing, progress reporting, risk management, and oversight. For its 
Post-9/11 GI Bill educational benefits system, VA used a new 
incremental software development approach and deployed the first two of 
four releases of its long-term system solution by its planned dates, 
thereby providing regional processing offices with key automated 
capabilities to prepare original and amended benefits claims. However, 
VA had areas for improvement, including establishing business 
priorities, testing the new systems, and providing oversight.
    Effective information security controls are essential to securing 
the information systems and information on which VA depends to carry 
out its mission. For over a decade, VA has faced long-standing 
information security weaknesses as identified by GAO, VA's Office of 
the Inspector General, VA's independent auditor, and the department 
itself. The department continues to face challenges in maintaining its 
information security controls over its systems and in fully 
implementing the information security program required under the 
Federal Information Security Management Act of 2002. These weaknesses 
have left VA vulnerable to disruptions in critical operations, theft, 
fraud, and inappropriate disclosure of sensitive information.
    VA and DoD operate two of the Nation's largest health care systems, 
providing health care to 6 million veterans and 9.6 million active duty 
servicemembers at estimated annual costs of about $48 billion and $49 
billion, respectively. To provide this care, both departments rely on 
electronic health record systems to create, maintain, and manage 
patient health information. GAO reported earlier this year that VA 
faced barriers in establishing shared electronic health record 
capabilities with DoD in three key IT management areas--strategic 
planning, enterprise architecture (i.e., a description of business 
processes and supporting technologies), and IT investment management. 
Specifically, the departments were unable to articulate explicit plans, 
goals, and time frames for jointly addressing the health IT 
requirements common to both departments' electronic health record 
systems. Additionally, although VA and DoD took steps toward developing 
and maintaining artifacts related to a joint health architecture, the 
architecture was not sufficiently mature to guide the departments' 
joint health IT modernization efforts. Lastly, VA and DoD did not have 
a joint process for selecting IT investments based on criteria that 
consider cost, benefit, schedule, and risk elements, which would help 
to ensure that the chosen solution both meets the departments' common 
health IT needs and provides better value and benefits to the 
government as a whole. Subsequent to our report, the Secretaries of 
Veterans Affairs and Defense agreed to pursue integrated electronic 
health record capabilities.

                               __________

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be a part of today's dialogue with the Subcommittee 
on the Department of Veterans Affairs' (VA) actions to better manage 
its information technology (IT) resources. The use of IT is crucial to 
helping VA effectively serve the Nation's veterans and the department 
has expended billions of dollars over the last several years to manage 
and secure its information systems and assets--the department's budget 
for IT now exceeds $3 billion annually.
    VA has, however, experienced challenges in managing its IT 
resources, as we have previously reported.\1\ As you requested, in my 
testimony today, I will describe those challenges, specifically in the 
areas of systems development, information security, and collaborating 
with the Department of Defense (DoD) to jointly develop electronic 
health record system capabilities.
---------------------------------------------------------------------------
    \1\ GAO, Electronic Health Records: DoD and VA Should Remove 
Barriers and Improve Efforts to Meet Their Common System Needs, GAO-11-
265 (Washington, D.C.: February 2011); Information Technology: Veterans 
Affairs Can Further Improve Its Development Process for Its New 
Education Benefits System, GAO-11-115 (Washington, D.C.: December 
2010); Information Security: Federal Guidance Needed to Address Control 
Issues with Implementing Cloud Computing, GAO-10-513 (Washington, D.C.: 
May 2010); Information Technology: Management Improvements Are 
Essential to VA's Second Effort to Replace Its Outpatient Scheduling 
System, GAO-10-579 (Washington, D.C.: May 2010); and Information 
Security: Veterans Affairs Needs to Resolve Long-Standing Weaknesses, 
GAO-10-727T (Washington, D.C.: May 19, 2010).
---------------------------------------------------------------------------
    The information in my testimony is based primarily on our previous 
work at VA. We also obtained and analyzed pertinent documentation to 
determine the current status of selected department management efforts. 
We conducted our work in support of this testimony during May 2011 in 
the Washington, D.C., area. All work on which this testimony is based 
was conducted in accordance with generally accepted government auditing 
standards.

Background

    VA's mission is to promote the health, welfare, and dignity of all 
veterans in recognition of their service to the Nation by ensuring that 
they receive medical care, benefits, social support, and lasting 
memorials. According to information from the department, its employees 
maintain the largest integrated health care system in the Nation for 
more than 5 million patients at more than 1,500 sites of care, provide 
compensation and pension benefits for nearly 4 million veterans and 
beneficiaries, and maintain nearly 3 million gravesites at 163 
properties. Over time, the use of IT has become increasingly important 
to the department's efforts to provide these benefits and services to 
veterans; VA relies on its IT systems for medical information and 
records and for processing benefits claims, including compensation and 
pension and education benefits. Further, VA is increasingly expected to 
improve its service to veterans by sharing information with other 
departments, especially DoD.
    VA's fiscal year 2012 request for almost $3.2 billion in IT budget 
authority indicates the range of the department's IT activities. For 
example, the request includes:

        <bullet>  about $1.4 billion to operate and maintain existing 
        infrastructure and systems;
        <bullet>  approximately $650 million to develop new system 
        capabilities to support, for example, faster compensation and 
        pension claims processing, elimination of veteran homelessness, 
        and improvement of veteran mental health;
        <bullet>  $68 million for information security activities; and
        <bullet>  $915 million to fund about 7,000 IT personnel.

    Our prior work has shown that success in managing IT depends, among 
other things, on having and using effective system development 
capabilities and having effective controls over information and 
systems. We have issued several products on VA in important management 
areas where the department faces challenges. My testimony today will 
briefly summarize these products.

Recent System Development Projects Have Achieved Varied Degrees of 
        Success

    Historically, VA has experienced significant IT development and 
delivery difficulties. We recently reported on two important VA systems 
development projects.\2\ The first project expended an estimated $127 
million without delivering any of the planned capabilities. VA has 
begun implementing capabilities from the second project, although we 
identified opportunities for improvement.
---------------------------------------------------------------------------
    \2\ GAO-10-579 and GAO-11-115.

VA's Scheduling Replacement Project Was Hindered by Systems Development 
---------------------------------------------------------------------------
        and Acquisition Weaknesses

    To carry out VA's daily operations in providing care to veterans 
and their families, the department relies on an outpatient appointment 
scheduling system. However, according to the department, this current 
scheduling system has had long-standing limitations that have impeded 
its effectiveness. Consequently, VA began work on a replacement system 
in 2000. However, after spending an estimated $127 million over 9 
years, VA had not implemented any of the planned capabilities.
    VA's efforts to successfully complete the Scheduling Replacement 
Project were hindered by weaknesses in several key project management 
disciplines and a lack of effective oversight. Specifically,

        <bullet>  VA did not adequately plan its acquisition of the 
        scheduling application and did not obtain the benefits of 
        competition. The Federal Acquisition Regulation (FAR) required 
        preparation of acquisition plans \3\ that must address how 
        competition will be sought, promoted, and sustained.\4\ VA did 
        not develop an acquisition plan until May 2005, about 4 years 
        after the department first contracted for a new scheduling 
        system. Further, VA did not promote competition in contracting 
        for its scheduling system. Instead, VA issued task orders 
        against an existing contract that the department had in place 
        for acquiring services such as printing, computer maintenance, 
        and data entry. These weaknesses in VA's acquisition management 
        reflected the inexperience of the department's personnel in 
        administering major IT contracts. To address identified 
        shortcomings, we recommended that VA ensure that future 
        acquisition plans document how competition will be sought, 
        promoted, and sustained.
---------------------------------------------------------------------------
    \3\ See FAR, subpart 7.1. See also FAR 34.004.
    \4\ See FAR 7.105 b(2).
---------------------------------------------------------------------------
        <bullet>  VA did not ensure that requirements were complete and 
        sufficiently detailed. Effective, disciplined practices for 
        defining requirements include analyzing requirements to ensure 
        that they are complete, verifiable, and sufficiently 
        detailed.\5\ For example, maintaining bidirectional 
        traceability from high-level operational requirements through 
        detailed low-level requirements to test cases is a disciplined 
        requirements management practice. However, VA did not 
        adequately define requirements. For example, in November 2007, 
        VA determined that performance requirements were missing and 
        that some requirements were not testable. Further, according to 
        project officials, some requirements were vague and open to 
        interpretation. Also, requirements for processing information 
        from other systems were missing. The incomplete and 
        insufficiently detailed requirements resulted in a system that 
        did not function as intended. In addition, VA did not ensure 
        that requirements were fully traceable. As early as October 
        2006, an internal review noted that the requirements did not 
        trace to business rules or to test cases. By not ensuring 
        requirements traceability, the department increased the risk 
        that the system could not be adequately tested and would not 
        function as intended. We therefore recommended that VA ensure 
        implementation of a requirements management plan that reflected 
        leading practices.
---------------------------------------------------------------------------
    \5\ See Carnegie Mellon Software Engineering Institute, Capability 
Maturity Model<SUP>'</SUP> Integration for Development, version 1.2 
(Pittsburgh, Pa., August 2006), and Software Acquisition Capability 
Maturity Model (SA-CMM) version 1.03, CMU/SEI-2002-TR-010 (Pittsburgh, 
Pa., March 2002).
---------------------------------------------------------------------------
        <bullet>  VA's concurrent approach to performing system tests 
        increased risk. Best practices in system testing indicate that 
        testing activities should be performed incrementally, so that 
        problems and defects \6\ with software versions can be 
        discovered and corrected early. VA's guidance on conducting 
        tests is consistent with these practices and specifies four 
        test stages and associated criteria for progressing through the 
        stages.\7\ For example, defects categorized as critical, major, 
        and average severity identified in testing stage one are to be 
        resolved before testing in stage two is begun. Nonetheless, VA 
        took a high-risk approach to testing by performing tests 
        concurrently rather than incrementally. Scheduling project 
        officials told us that they ignored their own testing guidance 
        and performed concurrent testing at the direction of Office of 
        Enterprise Development senior management in an effort to 
        prevent project timelines from slipping. The first version to 
        undergo stage two testing had 370 defects that should have been 
        resolved before stage two testing was begun. Almost 2 years 
        after beginning stage two testing, 87 defects that should have 
        been resolved before stage two testing began had not been 
        fixed. As a result of a large number of defects that VA and the 
        contractor could not resolve, the contract was terminated. To 
        prevent these types of problems with future system development 
        efforts, we recommended that VA adhere to its own guidance for 
        system testing.
---------------------------------------------------------------------------
    \6\ Defects are system problems that require a resolution and can 
be due to a failure to meet the system specifications.
    \7\ According to VA testing documentation, these stages are (1) 
testing within the VA development team, (2) testing services, (3) field 
testing, and (4) final review and acceptance testing.
---------------------------------------------------------------------------
        <bullet>  VA's reporting based on earned value management data 
        was unreliable. The Office of Management and Budget (OMB) and 
        VA policies require major projects to use earned value 
        management \8\ to measure and report progress. Earned value 
        management is a tool for measuring a project's progress by 
        comparing the value of work accomplished with the amount of 
        work expected to be accomplished. Such a comparison permits 
        actual performance to be evaluated and is based on variances 
        \9\ from the cost and schedule baselines. In January 2006, the 
        scheduling project began providing monthly reports to the 
        department's Chief Information Officer based on earned value 
        management data. However, the progress reports included 
        contradictory information about project performance. 
        Specifically, the reports featured stoplight indicators (green, 
        yellow, or red) that frequently were inconsistent with the 
        reports' narrative. For example, the June 2007 report 
        identified project cost and schedule performance as green, 
        despite the report noting that the project budget was being 
        increased by $3 million to accommodate schedule delays. This 
        inconsistent reporting continued until October 2008, when the 
        report began to show cost and schedule performance as red, the 
        actual state of the project. Further, the former program 
        manager noted that the department performed earned value 
        management for the scheduling project only to fulfill the OMB 
        requirement, and that the data were not used as the basis for 
        decision-making because doing so was not a part of the 
        department's culture. To address these weaknesses, we 
        recommended that VA ensure effective implementation of earned 
        value management.
---------------------------------------------------------------------------
    \8\ OMB issued policy guidance (M-05-23) to agency CIOs on 
improving technology projects that includes requirements for reporting 
performance to OMB using earned value management (August 2005).
    \9\ Cost variances compare the value of the completed work (i.e., 
the earned value) with the actual cost of the work performed. Schedule 
variances are also measured in dollars, but they compare the earned 
value of the completed work with the value of the work that was 
expected to be completed. Positive variances indicate that activities 
cost less or are completed ahead of schedule. Negative variances 
indicate activities cost more or are falling behind schedule.
---------------------------------------------------------------------------
        <bullet>  VA did not effectively identify, mitigate, and 
        communicate project risks. Federal guidance and best practices 
        advocate risk management.\10\ To be effective, risk management 
        activities should include identifying and prioritizing risks as 
        to their probability of occurrence and impact, documenting them 
        in an inventory, and developing and implementing appropriate 
        risk mitigation strategies. VA established a process for 
        managing the scheduling system project's risks that was 
        consistent with relevant best practices. Specifically, project 
        officials developed a risk management plan that defined five 
        phases--risk identification, risk analysis, risk response 
        planning, risk monitoring and control, and risk review. 
        However, the department did not take key project risks into 
        account. Senior project officials indicated that staff members 
        were often reluctant to raise risks or issues to leadership due 
        to the emphasis on keeping the project on schedule. 
        Accordingly, VA did not identify as risks (1) using a 
        noncompetitive acquisition approach, (2) conducting concurrent 
        testing and initiation of stage two testing with significant 
        defects, and (3) reporting unreliable project cost and schedule 
        performance information. Any one of these risks alone had the 
        potential to adversely impact the outcome of the project. The 
        three of them together dramatically increased the likelihood 
        that the project would not succeed. To improve management of 
        the project moving forward, we recommended that VA identify 
        risks related to the scheduling project and prepare plans and 
        strategies to mitigate them.
---------------------------------------------------------------------------
    \10\ OMB Circular A-130 (Nov. 30, 2000) and Carnegie Mellon 
Software Engineering Institute, Capability Maturity Model Integration 
for Development, version 1.2 (Pittsburgh, Pa., August 2006).
---------------------------------------------------------------------------
        <bullet>  VA's oversight boards did not take corrective actions 
        despite the department becoming aware of significant issues. 
        GAO and OMB guidance call for the use of institutional 
        management processes to control and oversee IT investments.\11\ 
        Critical to these processes are milestone reviews that include 
        mechanisms to identify underperforming projects, so that timely 
        steps can be taken to address deficiencies. These reviews 
        should be conducted by a department-level investment review 
        board composed of senior executives. In this regard, VA's 
        Enterprise Information Board was established to provide 
        oversight of IT projects through in-process reviews when 
        projects experience problems. Similarly, the Programming and 
        Long-Term Issues Board is responsible for performing milestone 
        reviews and program management reviews of projects. However, 
        between June 2006 and May 2008, the department did not provide 
        oversight of the Scheduling Replacement Project, even though 
        the department had become aware that the project was having 
        difficulty meeting its schedule and performance goals. 
        According to the chairman of the Programming and Long-Term 
        Issues Board, it did not conduct reviews of the scheduling 
        project prior to June 2008 because it was focused on developing 
        the department's IT budget strategy. To address these 
        deficiencies, in June 2009, VA began establishing the Program 
        Management Accountability System to promote visibility into 
        troubled programs and allow the department to take corrective 
        actions. We recommended that VA ensure the policies and 
        procedures it was establishing were executed effectively.
---------------------------------------------------------------------------
    \11\ GAO, Information Technology Investment Management: A Framework 
for Assessing and Improving Process Maturity, GAO-04-394G (Washington, 
D.C.: March 2004) and OMB, Capital Programming Guide: Supplement to 
Circular A-11, Part 7, Planning, Budgeting, and Acquisition of Capital 
Assets (Washington, D.C., June 2006).

    In response to our report, VA concurred with our recommendations 
and described its actions to address them. For example, the department 
stated that it would work closely with contracting officers to ensure 
future acquisition plans clearly identify an acquisition strategy that 
promotes full and open competition. In addition, the department stated 
that the Program Management Accountability System will provide near-
term visibility into troubled programs, allowing the Principal Deputy 
Assistant Secretary for Information and Technology to provide help 
earlier and avoid long-term project failures.
    In May 2011, VA's program manager stated that the department's 
effort to develop a new outpatient scheduling system--now referred to 
as 21st Century Medical Scheduling--consists largely of planning 
activities, including the identification of requirements. However, 
according to the manager, the project is not included in the 
department's fiscal year 2012 budget request. As a result, the 
department's plans for addressing the limitations that it had 
identified in its current scheduling system are uncertain.

VA Has Partially Delivered New Education Benefits System Capabilities, 
        but Can Improve Its Development Process

    In contrast to the scheduling system project failure, VA has begun 
implementing a new system for processing a recently established 
education benefit for veterans. The Post-9/11 GI Bill provides 
educational assistance for veterans and members of the armed forces who 
served on or after September 11, 2001. VA concluded that its existing 
system and manual processes were insufficient to support the new 
benefits. For instance, the system was not fully integrated with other 
information systems such as VA's payments system, requiring claims 
examiners to access as many as six different systems and manually input 
claims data. Consequently, claims examiners reportedly took up to six 
times longer to pay Post-9/11 GI Bill program claims than other VA 
education benefit claims. The challenges associated with its processing 
system contributed to a backlog of 51,000 claims in December 2009. In 
response to this situation, the department began an initiative to 
modernize its benefits processing capabilities. VA chose an incremental 
development approach, referred to as Agile software development,\12\ 
which is intended to deliver functionality in short increments before 
the system is fully deployed.
---------------------------------------------------------------------------
    \12\ Agile software development is not a set of tools or a single 
methodology, but a philosophy based on selected values, such as, the 
highest priority is to satisfy customers through early and continuous 
delivery of valuable software; delivering working software frequently, 
from a couple of weeks to a couple of months; and that working software 
is the primary measure of progress. For more information on Agile 
development, see http://www.agilealliance.org.
---------------------------------------------------------------------------
    In December 2010, we reported that VA had delivered key automated 
capabilities used to process the new education benefits. Specifically, 
it deployed the first two of four releases of its long-term system 
solution by its planned dates, thereby providing regional processing 
offices with key automated capabilities to prepare original and amended 
benefits claims. Further, VA established Agile practices including a 
cross-functional team that involves senior management, governance 
boards, key stakeholders, and distinct Agile roles and began using 
three other Agile practices--focusing on business priorities, 
delivering functionality in short increments, and inspecting and 
adapting the project.
    However, to help guide the full development and implementation of 
the new system, we reported that VA could make further improvements to 
these practices in five areas.

        1.  Business priorities. To ensure business priorities are a 
        focus, a project starts with a vision that contains, among 
        other things, a purpose, goals, metrics, and constraints. In 
        addition, it should be traceable to requirements. VA 
        established a vision that captured the project purpose and 
        goals; however, it had not established metrics for the 
        project's goals or prioritized project constraints. Department 
        officials stated that project documentation was evolving and 
        they intended to improve their processes based on lessons 
        learned; however, until it identified metrics and constraints, 
        the department did not have the means to compare the projected 
        performance with the actual results. We recommended that VA 
        establish performance measures for goals and identify 
        constraints to provide better clarity in the vision and 
        expectations of the project.
        2.  Traceability. VA had also established a plan that 
        identified how to maintain requirements traceability within an 
        Agile environment; however, the traceability was not always 
        maintained between legislation, policy, business rules, and 
        test cases. We recommended that VA establish bidirectional 
        traceability between requirements and legislation, policies, 
        and business rules.
        3.  Definition of ``done.'' To aid in delivering functionality 
        in short increments, defining what constitutes completed work 
        and testing functionality is critical.\13\ However, VA had not 
        established criteria for work that was considered ``done'' at 
        all levels of the project. Program officials stated that each 
        development team had its own definition of ``done'' and agreed 
        that they needed to provide a standard definition across all 
        teams. Without a mutual agreement for what constitutes ``done'' 
        at each level, the resulting confusion can lead to inconsistent 
        quality. We therefore recommended that VA define the conditions 
        that must be present to consider work ``done'' in adherence 
        with agency policy and guidance.
---------------------------------------------------------------------------
    \13\ One of the key Agile principles is that the delivery of 
completed software be defined, commonly referred to as the definition 
of ``done.'' This is critical to the development process to help ensure 
that, among other things, testing has been adequately performed and the 
required documentation has been developed.
---------------------------------------------------------------------------
        4.  Testing. While the department had established an 
        incremental testing approach, the quality of unit and 
        functional testing performed during Release 2 was inadequate in 
        10 of the 20 segments of system functionality we reviewed. 
        Program officials stated that they placed higher priority on 
        user acceptance testing at the end of a release and relied on 
        users to identify defects that were not detected during unit 
        and functional testing. Without improved testing quality, the 
        department risks deploying future releases that contain defects 
        that may require rework. To reduce defects and rework to fix 
        them, we recommended that VA improve the adequacy of the unit 
        and functional testing processes.
        5.  Oversight. In order for projects to be effectively 
        inspected and adapted, management must have tools to provide 
        effective oversight. For Agile development, progress and the 
        amount of work remaining can be reflected in a burn-down chart, 
        which depicts how factors such as the rate at which work is 
        completed (velocity) and changes in overall product scope 
        affect the project over time. While VA had an oversight tool 
        that showed the percentage of work completed to reflect project 
        status at the end of each iteration, it did not depict the 
        velocity of the work completed and the changes to scope over 
        time. We therefore recommended that VA implement an oversight 
        tool to clearly communicate velocity and the changes to project 
        scope over time.

    VA concurred with three of our five recommendations. It did not 
concur with our recommendation that it implement an oversight tool to 
clearly communicate velocity. However, without this level of visibility 
in its reporting, management and the development teams may not have all 
the information they need to fully understand project status. VA also 
did not concur with our recommendation to improve the adequacy of the 
unit and functional testing processes to reduce the amount of system 
rework. However, without increased focus on the quality of testing 
early in the development process, VA risks delaying functionality and/
or deploying functionality with unknown defects that could require 
future rework that may be costly and ultimately impede the claims 
examiners' ability to process claims efficiently.
    In early May 2011, we reported that the implementation of remaining 
capabilities is behind schedule and additional modifications are 
needed.\14\ According to VA officials, system enhancements such as 
automatic verification of the length of service were delayed because of 
complexities with systems integration and converting data from the 
interim system. Additionally, recent legislative changes to the program 
required VA to modify the system and its deployment schedule. For 
instance, VA will need to modify its system to reflect changes to the 
way tuition and fees are calculated--an enhancement that officials 
described as difficult to implement. Because of these delays, final 
deployment of the system is now scheduled for the end of 2011--a year 
later than planned.
---------------------------------------------------------------------------
    \14\ GAO, Veterans' Education Benefits: Enhanced Guidance and 
Collaboration Could Improve Administration of the Post-9/11 GI Bill 
Program, GAO-11-356R (Washington, D.C.: May 2011).

---------------------------------------------------------------------------
VA Continues To Face Information Security Challenges

    Effective information security controls \15\ are essential to 
securing the information systems and information on which VA depends to 
carry out its mission. Without proper safeguards, the department's 
systems are vulnerable to individuals and groups with malicious intent 
who can intrude and use their access to obtain sensitive information, 
commit fraud, disrupt operations, or launch attacks against other 
computer systems and networks. The consequence of weak information 
security controls was illustrated by VA's May 2006 announcement that 
computer equipment containing personal information on veterans and 
active duty military personnel had been stolen. Further, over the last 
few years, VA has reported an increasing number of security incidents 
and events. Specifically, each year during fiscal years 2007 through 
2009, the department reported a higher number of incidents and the 
highest number of incidents in comparison to 23 other major Federal 
agencies.
---------------------------------------------------------------------------
    \15\ Information system general controls affect the overall 
effectiveness and security of computer operations and are not unique to 
specific computer applications. These controls include security 
management, configuration management, operating procedures, software 
security features, and physical protections designed to ensure that 
access to data is appropriately restricted, that only authorized 
changes to computer programs are made, that incompatible computer-
related duties are segregated, and that backup and recovery plans are 
adequate to ensure the continuity of operations.
---------------------------------------------------------------------------
    To help protect against threats to Federal systems, the Federal 
Information Security Management Act of 2002 (FISMA) sets forth a 
comprehensive framework for ensuring the effectiveness of information 
security controls over information resources that support Federal 
operations and assets. The framework creates a cycle of risk management 
activities necessary for an effective security program. In order to 
ensure the implementation of this framework, FISMA assigns specific 
responsibilities to OMB, agency heads, chief information officers, 
inspectors general, and the National Institute of Standards and 
Technology (NIST), in particular requiring chief information officers 
and inspectors general to submit annual reports to OMB.
    In addition, Congress enacted the Veterans Benefits, Health Care, 
and Information Technology Act of 2006.\16\ Under the act, VA's Chief 
Information Officer is responsible for establishing, maintaining, and 
monitoring departmentwide information security policies, procedures, 
control techniques, training, and inspection requirements as elements 
of the department's information security program. It also reinforced 
the need for VA to establish and carry out the responsibilities 
outlined in FISMA, and included provisions to further protect veterans 
and servicemembers from the misuse of their sensitive personal 
information and to inform Congress regarding security incidents 
involving the loss of that information.
---------------------------------------------------------------------------
    \16\ Veterans Benefits, Health Care, and Information Technology Act 
of 2006, Pub. L. No. 109-461, 120 Stat. 3403, 3450 (Dec. 22, 2006).

---------------------------------------------------------------------------
Weaknesses in Security Controls Have Placed VA's Systems at Risk

    Information security has been a long-standing challenge for the 
department, as we have previously reported. In 2010, for the 14th year 
in a row, VA's independent auditor reported that inadequate information 
system controls over financial systems constituted a material 
weakness.\17\ Among 24 major Federal agencies, VA was one of eight 
agencies in fiscal year 2010 to report such a material weakness.
---------------------------------------------------------------------------
    \17\ A material weakness is a significant deficiency, or 
combination of significant deficiencies, that results in more than a 
remote likelihood that a material misstatement of the financial 
statements will not be prevented or detected by the entity's internal 
control.
---------------------------------------------------------------------------
    VA's independent auditor stated that, while the department 
continued to make steady progress, IT security and control weaknesses 
remained pervasive and placed VA's program and financial data at risk. 
The auditor noted the following weaknesses:

        <bullet>  Passwords for key VA network domains and financial 
        applications were not consistently configured to comply with 
        agency policy.
        <bullet>  Testing of contingency plans for financial management 
        systems at selected facilities was not routinely performed and 
        documented to meet the requirements of VA policy.
        <bullet>  Many IT security control deficiencies were not 
        analyzed and remediated across the agency and a large backlog 
        of deficiencies remained in the VA plan of action and 
        milestones system. In addition, previous plans of action and 
        milestones were closed without sufficient and documented 
        support for the closure.

    In addition, VA has consistently had weaknesses in major 
information security control areas. As shown in table 1, for fiscal 
years 2007 through 2010, deficiencies were reported in each of the five 
major categories of information security access controls \18\ as 
defined in our Federal Information System Controls Audit Manual.\19\
---------------------------------------------------------------------------
    \18\ Access controls ensure that only authorized individuals can 
read, alter, or delete data; configuration management controls provide 
assurance that only authorized software programs are implemented; 
segregation of duties reduces the risk that one individual can 
independently perform inappropriate actions without detection; 
continuity of operations planning provides for the prevention of 
significant disruptions of computer-dependent operations; and an 
agencywide information security program provides the framework for 
ensuring that risks are understood and that effective controls are 
selected and properly implemented.
    \19\ GAO, Federal Information System Controls Audit Manual 
(FISCAM), GAO-09-232G (Washington, D.C.: Feb. 2009).


         Table 1: Control Weaknesses for Fiscal Years 2007-2010
------------------------------------------------------------------------
     Security control category        2007      2008      2009     2010
------------------------------------------------------------------------
Access control                      <bullet>  <bullet>  <bullet  <bullet
                                                         >        >
------------------------------------------------------------------------
Configuration management            <bullet>  <bullet>  <bullet  <bullet
                                                         >        >
------------------------------------------------------------------------
Segregation of duties               <bullet>  <bullet>  <bullet  <bullet
                                                         >        >
------------------------------------------------------------------------
Contingency planning                <bullet>  <bullet>  <bullet  <bullet
                                                         >        >
------------------------------------------------------------------------
Security management                 <bullet>  <bullet>  <bullet  <bullet
                                                         >        >
------------------------------------------------------------------------


    Source: GAO analysis based on VA and Inspector General reports.

    In fiscal year 2010, for the 11th year in a row, the VA's Office of 
Inspector General designated VA's information security program and 
system security controls as a major management challenge for the 
department. Of 24 major Federal agencies, the department was 1 of 23 to 
have information security designated as a major management challenge. 
The Office of Inspector General noted that the department had made 
progress in implementing components of an agencywide information 
security program, but nevertheless continued to identify major IT 
security deficiencies in the annual information security program 
audits. To assist the department in improving its information security, 
the Office of Inspector General made recommendations for strengthening 
access controls, configuration management, change management, and 
service continuity. Effective implementation of these recommendations 
could help VA to prevent, limit, and detect unauthorized access to 
computerized networks and systems and help ensure that only authorized 
individuals can read, alter, or delete data.
    In March 2010, we reported \20\ that Federal agencies, including 
VA, had made limited progress in implementing the Federal Desktop Core 
Configuration (FDCC) initiative to standardize settings on 
workstations.\21\ We determined that VA had implemented certain 
requirements of the initiative, such as documenting deviations from the 
standardized set of configuration settings for Windows workstations and 
putting a policy in place to officially approve these deviations. 
However, VA had not fully implemented several key requirements. For 
example, the department had not included language in contracts to 
ensure that new acquisitions address the settings and that products of 
IT providers operate effectively using them. Additionally, VA had not 
obtained a NIST-validated tool to monitor implementation of 
standardized workstation configuration settings. To improve the 
department's implementation of the initiative, we made four 
recommendations: (1) complete implementation of VA's baseline set of 
configuration settings, (2) acquire and deploy a tool to monitor 
compliance with FDCC, (3) develop, document, and implement a policy to 
monitor compliance, and (4) ensure that FDCC settings are included in 
new acquisitions and that products operate effectively using these 
settings. VA concurred and has addressed the recommendation to ensure 
settings are included in new acquisitions. The department intends to 
implement the remaining recommendations in the future.
---------------------------------------------------------------------------
    \20\ GAO, Information Security: Agencies Need to Implement Federal 
Desktop Core Configuration Requirements, GAO-10-202 (Washington, D.C.: 
March 12, 2010).
    \21\ In March 2007, OMB launched the FDCC initiative to standardize 
and strengthen information security at Federal agencies. Under the 
initiative, agencies were to implement a standardized set of 
configuration settings on workstations with Microsoft Windows XP or 
Vista operating systems. OMB intended that by implementing the 
initiative, agencies would establish a baseline level of information 
security, reduce threats and vulnerabilities, and improve protection of 
information and related assets.

VA's Uneven Implementation of FISMA Has Limited the Effectiveness of 
---------------------------------------------------------------------------
        Security Efforts

    FISMA requires each agency, including agencies with national 
security systems, to develop, document, and implement an agencywide 
information security program to provide security for the information 
and information systems that support the operations and assets of the 
agency, including those provided or managed by another agency, 
contractor, or other source. As part of its oversight responsibilities, 
OMB requires agencies to report on specific performance measures, 
including the percentage of:

        <bullet>  employees and contractors receiving IT security 
        awareness training and those who have significant security 
        responsibilities and have received specialized security 
        training,
        <bullet>  systems whose controls were tested and evaluated, 
        have tested contingency plans, and are certified and 
        accredited.\22\
---------------------------------------------------------------------------
    \22\ Certification is a comprehensive assessment of management, 
operational, and technical security controls in an information system, 
made in support of security accreditation, to determine the extent to 
which the controls are implemented correctly, operating as intended, 
and producing the desired outcome with respect to meeting the security 
requirements for the system. Accreditation is the official management 
decision to authorize operation of an information system and to 
explicitly accept the risk to agency operations based on implementation 
of controls.

    Since fiscal year 2006, VA's progress in fully implementing the 
information security program required under FISMA and following the 
policies issued by OMB has been mixed. For example, from 2006 to 2009, 
the department reported a dramatic increase in the percentage of 
systems for which a contingency plan was tested in accordance with OMB 
policy. However, during the same period, it reported decreases in both 
the percentage of employees who had received security awareness 
training and the percentage of employees with significant security 
responsibilities who had received specialized security training. These 
decreases in the percentage of individuals who had received information 
security training could limit the ability of VA to effectively 
implement security measures.
    For fiscal year 2009, in comparison to 23 other major Federal 
agencies, VA's efforts to implement these information security control 
activities were equal to or higher in some areas and lower in others. 
For example, VA reported equal or higher percentages than other Federal 
agencies in the number of systems for which security controls had been 
tested and reviewed in the past year, the number of systems for which 
contingency plans had been tested in accordance with OMB policy, and 
the number of systems that had been certified and accredited. However, 
VA reported lower percentages of individuals who received security 
awareness training and lower percentages of individuals with 
significant security responsibilities who received specialized security 
training.

Cloud Computing Presents Opportunities but Poses IT Security Challenges

    Cloud computing is an emerging form of computing that relies on 
Internet-based services and resources to provide computing services to 
customers, while freeing them from the burden and costs of maintaining 
the underlying infrastructure. Examples of cloud computing include Web-
based e-mail applications and common business applications that are 
accessed online through a browser, instead of through a local computer. 
The President's budget has identified the adoption of cloud computing 
in the Federal Government as a way to more efficiently use the billions 
of dollars spent annually on IT. However, as we reported in May 
2010,\23\ Federal guidance and processes that specifically address 
information security for cloud computing had not yet been developed, 
and those cloud computing programs that have been implemented may not 
have effective information security controls in place.
---------------------------------------------------------------------------
    \23\ GAO-10-513.
---------------------------------------------------------------------------
    As we reported, cloud computing can both increase and decrease the 
security of information systems in Federal agencies. Potential 
information security benefits include those related to the use of 
virtualization, such as faster deployment of patches, and from 
economies of scale, such as potentially reduced costs for disaster 
recovery. Risks include dependence on the security practices and 
assurances of the provider, dependence on the provider, and concerns 
related to sharing computing resources. However, these risks may vary 
based on the cloud deployment model. Private clouds may have a lower 
threat exposure than public clouds, but evaluating this risk requires 
an examination of the specific security controls in place for the 
cloud's implementation. We made recommendations to OMB, the General 
Services Administration, and NIST to assist agencies in identifying 
uses of cloud computing and necessary security measures, selecting and 
acquiring cloud computing products and services, and implementing 
appropriate information security controls when using cloud computing.

VA Faces Barriers To Establishing Shared Electronic Health Record 
        Capabilities With DoD

    VA and DoD have two of the Nation's largest health care operations, 
providing health care to 6 million veterans and 9.6 million active duty 
servicemembers and their beneficiaries at estimated annual costs of 
about $48 billion and $49 billion, respectively. Although the results 
of a 2008 study found that more than 97 percent of functional 
requirements for an inpatient electronic health record system are 
common to both departments, the departments have spent large sums of 
money to separately develop and operate electronic health record 
systems. Furthermore, the departments have each begun multimillion 
dollar modernizations of their electronic health record systems. 
Specifically, VA reported spending almost $600 million from 2001 to 
2007 on eight projects as part of its Veterans Health Information 
Systems and Technology Architecture (VistA) modernization. In April 
2008, VA estimated an $11 billion total cost to complete the 
modernization by 2018. For its part, DoD has obligated approximately $2 
billion over the 13-year life of its Armed Forces Health Longitudinal 
Technology Application (AHLTA) and requested $302 million in fiscal 
year 2011 funds for a new system.
    Additionally, VA and DoD are working to establish the Virtual 
Lifetime Electronic Record (VLER), which is intended to facilitate the 
sharing of electronic medical, benefits, and administrative information 
between the departments. VLER is further intended to expand the 
departments' health information sharing capabilities by enabling access 
to private-sector health data. The departments are also developing 
joint IT capabilities for the James A. Lovell Federal Health Care 
Center (FHCC) in North Chicago, Illinois. The FHCC is to be the first 
VA/DoD medical facility operated under a single line of authority to 
manage and deliver medical and dental care for veterans, new Naval 
recruits, active duty military personnel, retirees, and dependents.
    In February 2011, we reported that VA and DoD lacked mechanisms for 
identifying and implementing efficient and effective IT solutions to 
jointly address their common health care system needs as a result of 
barriers in three key IT management areas--strategic planning, 
enterprise architecture, and investment management.

        <bullet>  Strategic planning: The departments were unable to 
        articulate explicit plans, goals, and time frames for jointly 
        addressing the health IT requirements common to both 
        departments' electronic health record systems. For example, 
        VA's and DoD's joint strategic plan did not discuss how or when 
        the departments propose to identify and develop joint health IT 
        solutions, and department officials did not determine whether 
        the IT capabilities developed for the FHCC could or would be 
        implemented at other VA and DoD medical facilities.
        <bullet>  Enterprise architecture: Although VA and DoD had 
        taken steps toward developing and maintaining artifacts related 
        to a joint health architecture (i.e., a description of business 
        processes and supporting technologies), the architecture was 
        not sufficiently mature to guide the departments' joint health 
        IT modernization efforts. For example, the departments did not 
        define how they intended to transition from their current 
        architecture to a planned future state.
        <bullet>  Investment management: VA and DoD did not establish a 
        joint process for selecting IT investments based on criteria 
        that consider cost, benefit, schedule, and risk elements, which 
        would help to ensure that a chosen solution both meets the 
        departments' common health IT needs and provides better value 
        and benefits to the government as a whole.

    These barriers resulted in part from VA's and DoD's decision to 
focus on developing VLER, modernizing their separate electronic health 
record systems, and developing IT capabilities for FHCC, rather than 
determining the most efficient and effective approach to jointly 
addressing their common requirements. Because VA and DoD continued to 
pursue their existing health information sharing efforts without fully 
establishing the key IT management capabilities described, they may 
have missed opportunities to successfully deploy joint solutions to 
address their common health care business needs.
    VA's and DoD's experiences in developing VLER and IT capabilities 
for FHCC offered important lessons to improve the departments' 
management of these ongoing efforts. Specifically, the departments can 
improve the likelihood of successfully meeting their goal to implement 
VLER nationwide by the end of 2012 by developing an approved plan that 
is consistent with effective IT project management principles. Also, VA 
and DoD can improve their continuing effort to develop and implement 
new IT system capabilities for FHCC by developing a plan that defines 
the project's scope, estimated cost, and schedule in accordance with 
established best practices. Unless VA and DoD address these lessons, 
the departments will jeopardize their ability to deliver expected 
capabilities to support their joint health IT needs.
    We recommended several actions that the Secretaries of Veterans 
Affairs and Defense could take to overcome barriers that the 
departments face in modernizing their electronic health record systems 
to jointly address their common health care business needs, including 
the following:

        <bullet>  Revise the departments' joint strategic plan to 
        include information discussing their electronic health record 
        system modernization efforts and how those efforts will address 
        the departments' common health care business needs.
        <bullet>  Further develop the departments' joint health 
        architecture to include their planned future state and 
        transition plan from their current state to the next generation 
        of electronic health record capabilities.
        <bullet>  Define and implement a process, including criteria 
        that considers costs, benefits, schedule, and risks, for 
        identifying and selecting joint IT investments to meet the 
        departments' common health care business needs.

    We also recommended that the Secretaries of Veterans Affairs and 
Defense strengthen their ongoing efforts to establish VLER and the 
joint IT system capabilities for FHCC by developing plans that include 
scope definition, cost and schedule estimation, and project plan 
documentation and approval.
    Both departments concurred with our recommendations and on March 
17, 2011, the Secretaries of Veterans Affairs and Defense committed 
their respective departments to pursue joint development and 
acquisition of integrated electronic health record capabilities.
    In summary, effective IT management is critical to the performance 
of VA's mission. However, the department faces challenges in key areas, 
including systems development, information security, and collaboration 
with DoD. Until VA fully addresses these and implements key 
recommendations, the department will likely continue to (1) deliver 
system capabilities later than expected; (2) expose its computer 
systems and sensitive information (including personal information of 
veterans and their beneficiaries) to an unnecessary and increased risk 
of unauthorized use, disclosure, tampering, theft, and destruction; and 
(3) not provide efficient and effective joint DoD/VA solutions to meet 
the needs of our Nation's veterans.
    Mr. Chairman, this concludes my statement today. I would be pleased 
to answer any questions you or other Members of the Subcommittee may 
have.

Contacts and Acknowledgments

    If you have questions concerning this statement, please contact 
Joel C. Willemssen, Managing Director, Information Technology Team, at 
(202) 512-6253 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="196e7075757c746a6a7c7773597e7876377e766f">[email&#160;protected]</a>; or Valerie C. Melvin, Director, 
Information Management and Human Capital Issues, at (202) 512-6304 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a9c4ccc5dfc0c7dfe9cec8c687cec6df87">[email&#160;protected]</a> Other individuals who made key contributions include 
Mark Bird, Assistant Director; Mike Alexander; Nancy Glover; Paul 
Middleton; and Glenn Spiegel.
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                    Washington, DC.
                                                       May 16, 2011
The Honorable Eric K. Shinseki
Secretary
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Secretary:

    In reference to the Oversight and Investigations Subcommittee 
hearing entitled ``Reboot: Examining VA's IT Strategy for the 21st 
Century'' that took place on May 11, 2011, I would appreciate it if you 
could answer the enclosed hearing questions by the close of business on 
June 20, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your response to 
Diane Kirkland at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88ece1e9e6eda6e3e1fae3e4e9e6ecc8e5e9e1e4a6e0e7fdfbeda6efe7fea6">[email&#160;protected]</a> If you have any 
questions, please call 202-225-3527.
            Sincerely,

                                                       Bill Johnson
                                                           Chairman
    EG/dk

                               __________

                        Questions for the Record
                  House Committee on Veterans Affairs
              Subcommittee on Oversight and Investigations
                         Chairman Bill Johnson
      ``Reboot: Examining VA's IT Strategy for the 21st Century''
                              May 11, 2011
Question 1: Does the VA OI&T have an Enterprise Architecture partner to 
        help realize the benefits of each of the 16 Major Initiatives 
        linked to business outcomes.

    Response: Yes, the Office of Information and Technology (OI&T) 
Office of Architecture and Strategy uses several partner companies in 
its work on the Major Initiatives to ensure they are well planned and 
coordinated. The business sponsor of each major initiative identifies 
the business goals and objectives they intend to achieve. These 
outcomes are reviewed and approved by the Deputy Secretary, then 
monitored on a monthly basis by Office of Policy and Planning (OPP) 
through Operational Management Reviews. OI&T is building an effective 
working relationship with the Business Architects in Veterans Health 
Administration (VHA), Veterans Benefits Administration (VBA), and 
National Cemetery Administration (NCA) to create more explicit 
Enterprise Architecture (EA) artifacts that link in more detail to the 
Department of Veterans Affairs (VA) Strategic Plan. In turn the Plan 
links to the Major Initiatives and to OI&T initiatives and the OI&T 
spend plan. VA is strengthening our approach to using EA to promote 
mission effectiveness and stewardship of funds.

    Question 2: Is Cloud Computing on the multi-year program? What is 
the desired time frame for its implementation and what are the deciding 
factors for that time frame?

    Response: Cloud computing is not a specific program line item; 
rather, VA has adopted the direction of the Federal Chief Information 
Officer (CIO) and has begun implementing a ``Cloud First'' strategy 
with any new OI&T initiatives. Agencies are now required to deploy 
technology projects to cloud-based solutions whenever a secure, 
reliable, cost-effective cloud option exists. Cloud is increasingly 
tightly woven into all new VA initiatives.
    VA has established criteria for Cloud projects within our 
enterprise data centers based on storage, processor load and 
application design.
    At this time, we are implementing a private Cloud based in our data 
centers that provides secure OI&T operations for VA internal systems as 
well as pursuing commercial Cloud hosting opportunities for VA systems 
that do not require the same level of security.
    The deciding factors in our time frame for deployment include:

        <bullet>  Security. Data that contains patient or Veteran 
        financial data obviously requires greater security than, for 
        example, Web sites listing information on obtaining VA 
        services.
        <bullet>  Applicability for Cloud deployment. Some 
        applications, because of heavy system requirements, do not lend 
        themselves to virtualization;
        <bullet>  Application design. Older applications may be 
        candidates for Cloud, but this requires programming and testing 
        to ensure compatibility;
        <bullet>  Budget. Moving to the Cloud involves funding to 
        deploy virtualized systems and storage, as well as for 
        regression testing and standardization of software;
        <bullet>  Staffing. VA has a finite number of programmers and 
        operations staff available to provide testing of Cloud 
        services; and
        <bullet>  Availability of secure, reliable, cost-effective 
        commercial services.

    There are several VA applications which are in production in a 
cloud-based architecture or have significant resources invested in 
their completion. VA currently employs a hybrid private cloud (both off 
and on premise) to deliver the Post-9/11 GI Bill application suite. The 
Department continues to work through the technology required to support 
the movement of 100,000 (approximately 20 percent) customer mailboxes 
into a Federal cloud architecture, targeted to begin early in fiscal 
fear 2012. VA has begun beta testing of a private cloud solution for 
the technology to interface lab equipment with the Department's 
electronic health care record. These are a few of the varied types of 
applications which VA has determined were suited for a cloud-based 
deployment.

    Question 3: How has VA's return on investment (ROI) in IT 
development over the last 5 years compared with private-sector 
companies of comparable size?

    Response: VA's IT ROI compares favorably with the private sector in 
a number of areas. A recent independent study covering the 10-year 
period between 1997 and 2007 found that VA's health IT investment was 
$4 billion, while savings were more than $7 billion. This represents a 
ROI of 75 percent. In comparison, a 2010 study of General Motors IT 
investments anticipates an internal ROI of 70 percent.\1\ An earlier 
study of Ford Motor Company's IT investment, on the ford.com Web site, 
cites a ROI of 115 percent.\2\ While the studies' methodologies may 
differ, the results indicate VA's IT ROI for VistA is similar to 
comparably-sized private-sector companies.
---------------------------------------------------------------------------
    \1\ 2010. General Motors Prepares for Future with Next Generation 
Information Networks for Global Manufacturing Operations: On Track to 
Achieve 166 percent ROI Over Five Years. Cisco Business Transformation 
Series--Connected Manufacturing, page 9. Retrieved from http://
www.cisco.com/web/strategy/docs/manufacturing/Cisco-AutoCaseStudy-
GM.pdf.
    \2\ 2002. ROI Profile: Microsoft Content Management Server 
Ford.com. Nucleus Research Note 17, page 1. Retrieved from http://
nucleusresearch.com/library/microsoft-roi/c17.pdf.
---------------------------------------------------------------------------
    However, recognizing systemic issues in other areas of development, 
VA introduced the Project Management Accountability System (PMAS) in 
2009 to dramatically increase VA's success rate in meeting customer 
software milestones. This success rate is now approximately 75 percent, 
up from 30 percent (estimated, as no metrics were tracked at that time) 
prior to PMAS implementation.

    Question 4: Please describe in further detail how VA's IT 
investment over the last 5 years has been in line with industry best 
practices and where improvements can be made.

    Response: Prior to the implementation of PMAS in 2009, VA IT 
investments were not adequately tracked to provide viable answer to 
this question. Since full implementation of PMAS in March of 2010, VA 
IT projects have been delivered approximately 75 percent of the 
customer facing milestones it set. This success rate is in line with 
industry best practices.

    Industry standards for managing IT investments focus largely on the 
principles and criteria established by the Project Management 
Institute, widely recognized as the credentialing authority for Project 
Management Professionals (PMP). These industry standards are constantly 
evolving. A common thread is the focus on measurable, performance-based 
oversight techniques that ensure product delivery is completed within 
budget, on schedule, and meets performance and functionality 
expectations.
    VA's PMAS is a performance-based project management discipline 
mandated by VA's Assistant Secretary for Information and Technology for 
all IT development projects. PMAS conforms to the core principles and 
standards recognized and utilized by private industry, but PMAS is 
specifically tailored to manage the unique investment, management, and 
oversight challenges faced by public sector IT development projects.
    PMAS establishes more rigorous controls than the industry standard 
for ensuring that investments in IT projects meet project development 
timelines and expectations for functionality. Specifically, PMAS uses 
incremental product build techniques for IT projects, with delivery of 
new functionality (tested and accepted by the customer) in cycles of 6 
months or less. Projects managed under PMAS are tightly monitored and 
subject to being halted when significant deviations to plans occur and 
insufficient remediation plans are presented. PMAS requires that a 
project be paused and re-evaluated at the point where it has 
demonstrated trouble.
    The use of metrics to monitor and assess performance for IT 
development is another best practice and key strategy VA employs to 
ensure resources are used effectively and project managers are held 
accountable. When PMAS was implemented, we identified a requirement to 
track, monitor, and report on the status of projects that fell under 
the PMAS management discipline. As a result, the PMAS Dashboard was 
developed and fielded. The purpose of the PMAS Dashboard is to track, 
monitor, and report the status of PMAS managed IT projects--thereby 
providing visibility into planned versus actual costs and schedules, 
and to provide a disciplined management approach with the goal to 
improve the rate of success of VA's IT projects. The status of every 
active PMAS-managed project is reported to and reviewed by VA senior 
management on a monthly basis. The implementation of PMAS and related 
tools has resulted in the on-time delivery of customer-facing products 
approximately 75 percent of the time, an increase from 30 percent on-
time prior to the implementation of PMAS.
    PMAS also necessitates the use of VA's standardized development 
processes. These processes are captured in ProPath, VA's IT process 
asset library. Process standardization is widely accepted by industry 
and advisory bodies as a means for improving delivery rate, resource 
usage, and organizational success. While ProPath initially captured 
only development practices, later versions of ProPath will capture all 
aspects of the development lifecycle.
    In addition to PMAS, VA adopted a new acquisition strategy to more 
effectively use our IT resources. This new strategy for acquiring IT 
services, Transformation Twenty-One Total Technology (T4), will assist 
to consolidate our IT service requirements into 15 prime contracts 
(seven of which have been reserved for Veteran-owned small businesses) 
leveraging economies of scale to save both time and money and enable 
greater oversight and accountability.

    Question 5: Going forward, how will VA OI&T ensure IT contracts are 
properly defined and written from RFI to RFP to Contract to 
Implementation--in order to ensure more responsible use of taxpayers' 
dollars?

    Response: VA is using and now strengthening our Integrated Project 
Team (IPT) process with the right personnel from the beginning of a 
procurement/acquisition submission to implementation. VA has already 
published the first IPT guide, and requires as part of PMAS policy, 
that all projects must be managed under a cognizant IPT. IPT membership 
is specified in policy, and must include a warranted contracting 
officer and general counsel. OI&T, OPP, Office of Acquisition, 
Logistics and Construction (OALC), and Office of General Counsel (OGC) 
are collaborating in devising several mechanisms to strengthen IPTs. 
The options under consideration include more training on IPT operation, 
use of acquisition-trained facilitators for IPT for larger, high-
priority programs, and greater management visibility into assignment of 
staff to IPTs. Customer engagement is required already in policy, but 
could be strengthened as well to assure timely development of 
requirements and real-time awareness of project issues that could 
affect schedule of functionality. This is a teaming relationship with 
the customer to properly define the requirement so that we are able to 
design, develop, implement, and deploy the materiel solution needed by 
the customer. (This is all part of the IPT and PMAS processes, and 
recorded in ProPATH, the VA OI&T process asset library, which serves as 
the basis for development of all courseware for OI&T staff training.)
    To allow time for IPTs to operate properly and develop practical 
acquisition strategies, VA is now accelerating the due date for 
business requirements. For functional requirements for FY 12 projects, 
the due date will be July 2011.
    The following are the practices being utilized at the Technology 
Acquisitions Center (TAC):


    Customer Training--Training provided acquisition-related material 
to OI&T personnel, covering essential topics such as market research, 
performance work statements, cost estimates, and technical evaluations. 
Each of these training units, along with `hands-on' workshops, were 
intended to provide the customer with fundamental information that 
would help them to better understand the acquisition process and 
associated documentation, thereby resulting in better defined 
requirements, streamlined processes, and reduced cycle time.
    Document Templates--Templates were developed to guide the customer 
in preparing acquisition plans, sole source justifications, and cost 
benefit analysis, along with instructional procurement guidelines, 
which helped customers understand what acquisition documents were 
required based on the type of procurement and the dollar threshold. One 
template found most useful was the Performance Work Statement (PWS) 
template for services, which provided the preparer with detailed 
guidance through the template. The PWS template has aided in the 
preparation of requirements which were consistent, accurate, and 
complete. The introduction of uniformity in the process provides 
additional assurances that requirements would be more easily 
understood, and thereby lessen ambiguities which could lead to 
misinterpretation and undesirable performance.
    IPTs and Lockdowns--Two highly effective practices that result in 
better defined requirements--and ultimately better contracts--is 
through the use of ``IPTs'' and ``Lockdowns.'' With roles and 
responsibilities clearly defined in charters, acquisition and customers 
work together as integral IPT members in the identification, refinement 
and establishment of IT requirements and acquisition strategies. While 
IPTs characterized the components of the partnership, the practice of 
``lockdowns'' provide a real-time, collaborative working framework from 
which the IPT could excel. With each lockdown session, the objective of 
critical ``buy-in'' is achieved as hands-on IPT participants 
collaboratively formulated business strategies, and established 
acquisition planning goals, while also jointly developing high-quality 
technical documentation.
    Partnering with Industry--Receiving useful feedback from industry 
is critical establishing requirements that are both accurate and 
feasible. Reaching out to industry is a valuable investment of 
resources, which in the end pays dividends to several beneficiaries. 
Through ``Advanced Planning Briefings for Industry'' (APBI) and 
``Industry Days,'' cross-communication between industry and the 
government results in a mutual understanding of the needs and 
capabilities of the two parties. More specifically, an Industry Day 
conference allows industry to raise questions and present ideas for 
Government consideration on a specific, pending requirement. Through 
these give-and-take forums, the government is provided an opportunity 
to best define, and refine, its requirements before a solicitation is 
released.

    Question 6: In the Catapult contract, VA OIG found that VA paid 
Catapult on a milestone basis. This payment basis was inconsistent with 
both the contract as well as the information provided to vendors during 
solicitation. What mechanisms are or were in place to prevent blatant 
disregard of contracting conditions established twice in writing? How 
did those mechanisms fail twice in the case of this contract?

    Response: OI&T is currently conducting an internal review of the 
Catapult contract. We expect this review to be complete by mid-July, 
and will plan to brief the Subcommittee when the review is complete.

    Question 7: How does an individual or company access GSA's Schedule 
70 in order to participate in VA's IT contracting process?

    Response: There are over 4,000 companies currently on GSA's 
Schedule 70. In order to participate in VA's IT contracting process 
under GSA's Schedule 70, the individual or company must first obtain a 
GSA Schedule 70 contract. The first step in the process is submitting 
an offer in response to the IT Schedule 70 solicitation, which is made 
available on the Federal Business Opportunities (FedBizOpps) Web site. 
The individual or company would then submit an electronic offer via 
GSA's eOffer electronic system. GSA would review the offer to ensure 
compliance with the solicitation, and upon determination that the 
offeror's prices were fair and reasonable, a GSA IT Schedule 70 
contract would be awarded if it was in the best interest of the 
government. To assist an individual or company, GSA has made available 
the free online training courses, ``How to Become a Contractor--GSA 
Schedules Program'' and ``How to Get on Schedule.'' These courses 
provide prospective offerors with helpful information about how to 
prepare an offer and the GSA Schedule 70 contract award process.

    Question 8: In the absence of a final T4 award, is VA moving 
forward with its IT projects? Is the contracting organization denying 
the program managers alternative contracting vehicles in anticipation 
of using T4?

    Response: VA is, and will continue to move forward on all of its IT 
projects. The VA's contracting organizations will continue to take into 
consideration all available contractual vehicles in the development of 
an acquisition strategy. This procedure will continue irrespective of 
the T4 awards.

    Question 9: What assurance can VA provide the Committee that VA 
will use other contracting vehicles that are currently available in 
order to move IT projects forward?

    Response: Since January 1, 2011, OI&T has awarded 218 contracts 
(through June 1, 2011) using various contracting vehicles. We will 
continue to perform work while we await T4 award.

    Question 10: What steps has VA taken to ensure success for the 
Interagency Program Office (IPO) as ``the single point of 
accountability'' as established in the FY 2008 National Defense 
Authorization Act? How has VA defined ``single point of 
accountability'' in writing to those involved with the IPO?

    Response: VA will be utilizing the IPO as established by the FY 
2008 National Defense Authorization Act. VA and DoD are currently 
revising IPO's charter to empower the IPO to effectively manage the 
implementation of the integrated Electronic Health Record (iEHR).

    Question 11: Please describe in further detail the cooperative 
actions, below the Secretary level, between VA and DoD in implementing 
iEHR.

    Response: The Secretaries have designated the Deputy Chief 
Management Officer (DoD) and the Assistant Secretary, Information and 
Technology (VA) to lead the coordinated efforts of the two Departments 
to establish the iEHR through a Senior Coordinating Group (SCG). The 
Secretaries have charged the SCG with accomplishing the initial 
objectives of the iEHR, including establishing governance, naming key 
staff, and planning the implementation of the iEHR, including costing. 
There are hundreds of VA and DoD staff working on accomplishing the 
various taskings as assigned by the SCG.

    Question 12: Please describe in further detail DoD's role in the 
move toward Open Source and how that role has compared to VA's actions.

    Response: Clearly, establishing an Open Source consortium, and 
embracing private-sector participation in VistA, was initially driven 
by VA. After considering the role that Open Source could play in 
ensuring the long-term success of the iEHR, particularly in helping the 
government better engage the private sector, DoD agrees with VA that 
Open Source is a vital part of the path forward for the iEHR. To that 
end, DoD is participating in both the selection of the Custodial Agent 
(CA) and in the Board of Directors of the CA.

    Question 13: The National Institute of Standards and Technology 
(NIST), in its Internal Report 7622 (NISTIR 7622) published last year, 
sets of supply chain risk management practices for Federal information 
systems. Has VA applied these practices to its own IT projects? What 
steps has VA taken to minimize supply chain risk for IT projects?

    Response: VA OI&T minimizes supply chain risk management by 
managing the security component of all software development and service 
delivery work. OI&T does not outsource the security component when 
purchasing products and services. OI&T has developed tight security 
controls in line with the NIST recommendations, as well as FISMA 
requirements, which allows us to provide the necessary standards to 
manage supply chain risk.

    Question 14: Has the IPO been utilized in any of these steps? If 
so, which ones?

    Response: As VA and DoD move forward with plans to strengthen the 
IPO's charter, supply chain risk management best practices will be one 
of the many factors considered.

    Question 15: Please further explain VA's certainty in the Open 
Source approach when, by VA's own admission, no cost analysis had been 
done ahead of time. Other than a three-page document provided to the 
Subcommittee after the May 11 hearing, what documentation explains in 
detail the review of all alternatives before making a decision?

    Response: The cost analysis for Open Source is short because the 
analysis is simple. VA has proven that the EHR is a vital part of 
effective heath care for Veterans. Our current EHR, VistA, while still 
viable is no longer the market leader VA assesses the cost of replacing 
VistA at its 153 hospitals and over 800 CBOCs at approximately $16 
billion. If VA cannot find a way to move VistA forward at a rate that 
keeps pace with the private sector, we must eventually ask the 
taxpayers for the funding necessary to replace VistA. Our assessment is 
that Open Source is a viable path, and perhaps the only viable path, to 
allow VA to improve VistA at a much more rapid pace by involving the 
private sector in both planning and implementing its path forward. As 
DoD and VA move forward to establish the iEHR, the involvement of the 
private sector is even more critical, which is one of the primary 
reasons DoD has agreed with VA that Open Source should be part of our 
overall iEHR plans.
    VA has spent more than a year conducting a very deliberative 
process to examine the implications of Open Source for VistA. We have 
seen two substantial studies on the topic contributed by the private 
sector and academia. We have consulted with hundreds of organizations, 
and thousands of individuals about the pros and cons of the Open Source 
approach. We have conducted three Requests for Information (RFIs), and 
received numerous papers, emails, and comments. Our path forward with 
Open Source has been broadly advised and is highly transparent.

    Question 16: Please identify and explain the elements of VA's life-
cycle analysis of IT projects.

    Response: IT projects are selected based on their relationship to 
the VA Strategic Plan. The single IT authority at VA allows 
comprehensive view of all VA IT investments and their prioritization 
using a shared governance approach in concert with their respective 
business sponsors. To create a lifecycle view of total cost of 
ownership, VA is in the process of implementing IPTs for all projects, 
which includes members with the knowledge of life cycle management, to 
address all infrastructure components from data center to desktop, from 
project initiation to close out and disposal.

    Question 17: Please explain how VA applied the above life-cycle 
analysis to Open-Source VistA prior to making the decision to move 
forward on that project.

    Response: VA senior leadership has determined that as a software 
sourcing strategy, Open Source (OS) represents an approach that is very 
likely to reduce development risk and strengthen development rigor, 
promote innovation, promote cyber security, and make OS applications 
more broadly available to the Nation through the entire life cycle of 
each OS project. Open Source is a development strategy, and is not 
itself a project with a life cycle--and, it is not a substitute for 
life cycle management of total cost of ownership. The OS approach will 
allow VA to address total cost of ownership for Open Source software, 
including implementation, hosting, telecommunications, end-user 
support, and project closeout.

    Question 18: Is VA appropriately staffed with the knowledge and 
experience level to build rigorous business cases based on 
comprehensive cost benefit analyses and returns on investment in 
information technology?

    Response: While no organization is at a point where it has all of 
the expertise and knowledge it needs, VA OI&T has made great strides 
towards building an IT staff with the knowledge and skills required to 
accomplish our mission. Through our Program/Project Manager training 
courses, peer review process, techstat meetings, competency model, and 
other training and guidance practices, OI&T has worked to develop tools 
to improve the performance of our staff.

    Question 19: Please describe OI&T's incorporation of Supply Chain 
Risk Management by the National Institute of Standards and Technology 
(NIST) in moving forward with Open Source software implementation.

    Response: As discussed above, OI&T's Information Security 
organization effectively and directly manages the security component of 
software development, procurement, and implementation. We will continue 
to employ these best practices in moving forward with the Open Source 
software implementation.

    Question 20: DoD is currently running pilot programs on 
cybersecurity. Please explain VA's decision to move forward on large-
scale IT programs before these programs have concluded and the results 
have been published.

    Response: VA has determined that delay in pursuing its operational 
requirements for critical programs such as Veterans Benefits Management 
System (VBMS), Post-9/11 GI Bill, and VistA Open Source, should not be 
delayed due to DoD's pilot programs. This assessment considered the 
pressing needs to improve performance and service delivery to Veterans 
as well as the status of each program. VA will ensure its cybersecurity 
requirements are fully integrated into all projects and will maintain 
close contact with DoD in order to consider the emerging outcomes of 
their pilot programs.

    Question 21: According to a number of industry white papers, Wi-Fi 
has deficiencies as a real-Time Asset and Patient Tracking Solution and 
ultimately will cost more to use this method than radio frequency 
identification technology (RFID) for the same purpose. On June 17, 
2010, VA (10N) placed a moratorium on Real Time Location systems 
acquisition because a national contract was to be implemented during 
that fiscal year. Is the moratorium still in place? If so, please 
explain VA's recent submissions of two RFP's with language that 
indicates Infra-red and Radio Frequency work-arounds while the 
moratorium is in place?

    Response: Real-Time Location Systems (RTLS) and radio frequency 
identification (RFID) are closely related, and are overlapping 
technologies used for identifying and locating items or people. RTLS is 
the term used to describe those technologies that provide ``real-time'' 
location, regardless of whether radio frequencies are used or some 
other technology, such as ultrasound or infra-red. RFID is the term 
used to indicate that radio frequencies are being utilized, regardless 
of whether the item is being located in real-time or not. Therefore, 
some RTLS systems are also RFID systems, and some RFID systems are also 
RTLS systems. They are not necessarily separate systems that compete 
with one another. Rather, the terms offer differing ways of describing 
these systems, either by describing the technologies employed or the 
uses for the technologies. RFID is generally broken down into two 
types: passive and active. Active RFID systems utilize a tag with a 
battery, that beacons information at pre-set intervals. Passive RFID 
systems utilize a ``tag'' (normally a sticker or label) that has no 
battery, so relies on an external power source to ``excite'' it, 
causing it to send out an identification message. Because passive RFID 
tags only announce themselves when in the proximity of an exciter, 
passive systems generally do not offer real-time location capabilities.
    VA has a large number of business processes (use cases) that can 
benefit from RTLS and/or RFID technologies. Some use cases lend 
themselves to passive RFID, while others lend themselves to active 
RFID/RTLS. An example of the former is folder accountability and 
inventorying in VBA, while an example of the latter is real-time 
location of mobile medical assets, such as EKG carts, infusion pumps, 
or wheelchairs. Because VA has such a wide variety of use cases, it was 
understood from the beginning that no single RFID/RTLS technology would 
satisfy all of VA's needs. It is therefore VA's plan to procure an 
appropriate technology to address each use case.
    Even within active RFID, there are numerous technologies, each with 
their own unique set of plusses and minuses. Wi-Fi is a radio frequency 
(RF) based system utilizing the 2.4 GHz band. There are also RF based 
systems utilizing the 900 MHz and 433 MHz bands. Additionally, there 
are systems that utilize ultrasound (either alone or in combination 
with an RF-based system) or an infra-red system in combination with an 
RF-based system.
    Prior to making the decision to utilize Wi-Fi for RTLS, when 
possible, VA consulted with industry leaders such as Gartner. Gartner 
indicated that Wi-Fi has the single largest market share, by far, in 
the health care RTLS market space, (likely exceeding 60 percent) and 
that when a properly configured WiFi network is already in place, it 
makes sense to leverage the existing investment for location-based 
services such as RTLS, rather than wiring and installing redundant 
networks of transceivers, at great cost, for little or no benefit. 
Cost, however, is not the only consideration. One of VA's major 
concerns is interoperability and not being locked into a proprietary, 
single-vendor solution. WiFi-based RTLS systems are the only standards-
based RTLS solution, being based on the international IEEE 802.11 
standard. Other systems (notably, those based on 900 MHz, 433 MHz, and 
ultrasound) are highly proprietary, meaning that one vendor's tags will 
not work with any other vendor's transceivers, even if the same 
frequency band is utilized. This creates two potentially dangerous 
conditions for VA: the possibility of the single vendor going out of 
business, and the possibility of the single vendor raising the cost of 
the proprietary tags by an exorbitant amount. VA finds it more prudent 
to employ technologies based on internationally-recognized standards, 
where consumables (in this case, RTLS tags) are commodities, available 
from multiple vendors.
    Wi-Fi based RTLS systems currently have a spatial resolution of 
approximately 7 meters at best, although as technology advances, this 
is improving. For some purposes, it is sufficient to know where an item 
is to within 7 meters accuracy. It is for those use cases only that VA 
intends to utilize Wi-Fi alone. It is well understood that some use 
cases in VA require pinpointing an item's location with greater 
accuracy than 7 meters, and it is our intention to procure 
complementary technologies (infra-red or ultrasound) in those cases. 
This is not a work-around for a flawed system. Use of hybrid systems is 
a common strategy employed by RTLS vendors and customers to leverage 
the benefits of Wi-Fi, yet augment it (where necessary) to provide 
finer spatial resolution than could be achieved by Wi-Fi alone. It 
should be noted that other RF-based systems (e.g. 433 and 900 MHz) also 
require these same complementary technologies to enhance spatial 
resolution for certain use cases.
    Given the promise that RFID and RTLS systems have for VA 
operations, multiple VA entities have identified the need for these 
systems and had begun to procure them. Unfortunately, this was being 
done in an uncoordinated fashion, with no technical standards and no 
thought to interoperability. If these systems are to be maximally 
useful, they must be able to exchange data and be able to aggregate 
data at a national level. Commonality is also required in order to 
support higher quality, more efficiency, and less costly. This was the 
impetus behind the moratorium. It was designed to afford VA the 
opportunity to devise a technical strategy for RFID/RTLS so that 
taxpayer dollars would be used wisely.
    The RTLS/RFID moratorium is still in place, while VA crafts a 
national RFP and awards an intended indefinite delivery/indefinite 
quantity (IDIQ) contract to satisfy all RTLS/RFID needs. Although 
significant market research has been done, and is continuing, the 
extremely large scope of the RTLS initiative made it prudent to perform 
several technology demonstrations. The two RFPs cited are part of VA's 
carefully controlled technology demonstrations. Veterans Integrated 
Service Networks (VISNs) 10 and 11 have been given permission to 
procure RTLS/RFID systems, in very specific configurations, prior to 
award of the national IDIQ contract. It is hoped that the lessons 
learned from these technology demonstrations will aid us in the 
implementation and use of RTLS/RFIS systems nationally, and help shape 
future technology choices.

    Question 22: The National Project Management Office (PMO) for Real 
Time Location Systems (RTLS) is touted as the Center of Excellence for 
those systems, yet, contrary to industry standard, it is pursuing 
802.11 technology for location services despite known limitations of 
802.11 for that purpose. Please explain in detail the reason for using 
802.11 and the reasons for not using Infra-red and Radio Frequency 
methodologies, two technologies generally regarded as better suited for 
location services and other uses.

    Response: VA performed extensive market research on the various 
technologies, including consulting with the firm generally considered 
to be the leader in information technology (IT) consulting, Gartner. It 
is VA's understanding that Wi-Fi based RTLS systems command the lion's 
share of the market for health care RTLS--over 50 percent. That would 
make it very much the ``industry standard.'' Additionally, it is not 
VA's intention to use Wi-Fi systems alone, except where it meets the 
business need. Whenever a greater spatial resolution is needed than Wi-
Fi alone can provide, VA intends to use Wi-Fi along with a 
complementary technology, such as infra-red or ultrasound. Part of VA's 
motivation for performing the technology demonstrations in VISNs 10 and 
11 is to generate first-hand knowledge of the benefits and 
disadvantages of each of the major RTLS technologies in a VA 
environment, so that we need not rely on information from external 
sources that may or may not be relevant to VA.
    VA is not aware of any compelling data to suggest that a hybrid 
system utilizing Wi-Fi and a complementary technology (when necessary) 
is inferior to other RTLS technologies on the market.

    Question 23: How does VA OI&T address Wi-Fi's incompatibility with 
existing structures that result in a need for more access points to 
triangulate tags and higher long-run costs compared to other 
technologies?

    Response: The need for additional access points is primarily 
related to the desire to support voice over Wi-Fi (VoWiFi). The number 
of additional Wi-Fi- access points needed to support RTLS (as compared 
to VoWiFi) is small--estimated to be an additional 10 percent or less. 
It is hard to understand how a non-WiFi RTLS system could demonstrate 
lower long-term costs than a WiFi-based RTLS system, when an 
organization already has a WiFi infrastructure in place capable of 
providing location-based services. Implementing a non-WiFi RTLS system 
would require pulling cable for hundreds of additional transceivers per 
facility, purchasing and installing those transceivers, potentially 
running electrical connections for those transceivers, and then 
providing ongoing support and maintenance for the non-WiFi RTLS 
transceivers (in addition to the WiFi access points that would still be 
needed for other business purposes). WiFi-based tags can be moderately 
more costly than non-WiFi tags, (perhaps $50 per tag instead of $40) 
but the number of RTLS tags per facility would need to be huge in order 
to make up the excess cost (up front and ongoing) associated with the 
non-WiFi infrastructure. It should also be noted that with a WiFi-based 
RTLS system, any device that already has WiFi built in does not need a 
tag, since its existing WiFi radio acts as an RTLS tag. In addition to 
devices like laptops, tablets, and smart phones, more and more medical 
devices now come equipped with WiFi radios, further saving on RTLS tag 
costs.

    Question 24: Are additional technologies necessary to achieve 
better accuracy in location and tracking services, at a minimum, and if 
so, are additional infrastructures needed?

    Response: As discussed more fully in question 21, WiFi suffices for 
some of VA's many RTLS use cases, while for others, it does not. Where 
a use case demands greater spatial resolution than WiFi alone can 
provide, VA intends to utilize complementary technologies, such as 
ultrasound or infra-red, on an as-needed basis.

    Question 25: Does VA utilize RFID/RTLS technology that provides 
multiple uses on the same infrastructure?

    Response: VA currently has only very limited deployment of RTLS. 
However, the plan, as currently envisioned, allows us to leverage the 
same infrastructure (WiFi) for multiple business purposes, including 
wireless data (Bar Code Medication Administration [BCMA], bedside 
nursing admissions, bedside progress notes, etc) and voice (wireless 
WiFi-based phones).

    Question 26: How do these Wi-Fi solutions track objects outside the 
building using the same infrastructure versus other technologies that 
have both indoor and outdoor solutions built-in?

    Response: None of the initial use cases for VHA involve tracking 
items outdoors. WiFi can be utilized for outdoor use cases, when the 
item will remain on campus. If inter-facility location-finding is 
needed, some other technology, such as GPS, would likely be utilized.

    Question 27: How does VA OI&T deal with the latency in Wi-Fi 
between when a message is sent and received, potentially triggering 
alarms and, for example, locking a door before a patient is able to 
exit?

    Response: There is no industry consensus on whether WiFi is slower 
or has greater latency than competing systems, but OI&T does not 
believe this to be an issue. However, if latency issues were a concern, 
quality of service controls could be instituted to ensure that RTLS 
traffic would get priority.

    Question 28: Do VA's Wi-Fi solutions send encrypted data vulnerable 
to a security breach?

    Response: The VA Wi-Fi utilizes equipment that is FIPS 140-2 
Certified (mandated by FISMA and VA Handbook 6500) and is configured to 
follow the associated FIPS 140-2 Security Policy as well as following 
NIST Special Publication 800-97: Establishing Wireless Robust Security 
Networks. The system is based on 802.11i WPA2/AES security protocols 
which utilize FIPS 140-2 certified cryptographic modules.

    Question 29: How do these solutions keep running if there is an 
issue with the Wi-Fi infrastructure or access points at any given time?

    Response: The Wi-Fi Infrastructure is setup and configured to 
survive single component failure at the controller in the N+1 design 
model. The access points (AP) are deployed and configured in a way in 
which the system self heals. That is, the infrastructure will see an AP 
``drop off'' and will increase signal strength in surrounding APs to 
cover the deficiency automatically.

    Question 30: How will the cost of batteries in Wi-Fi tags affect 
long-term usage and cost versus other low-power consumption 
technologies?

    Response: Our market research indicates that battery life with 
WiFi-based tags will be comparable to that seen in other active RTLS 
tags. By adjusting the beacon rate, a battery life of 2 years or more 
should be attainable. Necessary beacon rate will vary by use case.

    Question 31: How will interface from Wi-Fi in everyday devices 
carried by people in facilities affect the tracking of tags in any VA 
facility?

    Response: Although this has been raised as a concern, at least 60 
percent of the health care RTLS market utilizes WiFi-based systems, and 
interference from other WiFi devices has not been shown to be a 
significant problem.

    Question 32: VA OI&T currently has a workforce of over 7,100 
people. Please outline the growth of that staff over the last 2 years 
as well as anticipated future growth.

    Response: At the beginning of FY 2009, OI&T staff count was 6,645. 
The current (as of April) staff count is 7,101. OI&T's planned end-of-
FY 2011 staff count is 7,271. We are not requesting a staffing increase 
as part of our FY 2012 budget.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                    Washington, DC.
                                                       May 12, 2011
The Honorable Roger W. Baker
Assistant Secretary for Information
Technology and Chief Information Officer
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Secretary Baker:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Oversight and 
Investigations hearing on Reboot: Examining VA's IT Strategy for the 
21st Century on May 11, 2011. Please answer the enclosed hearing 
questions and deliverables by no later than Wednesday, June 22, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-9756.
            Sincerely,

                                                       Joe Donnelly
                                                     Ranking Member
    MH/ot

                               __________

                        Questions for the Record
                  House Committee on Veterans' Affairs
              Subcommittee on Oversight and Investigations
                      Ranking Member Joe Donnelly
      ``Reboot: Examining VA's IT Strategy for the 21st Century''
                              May 11, 2011
    Question 1: What are we doing to convert the many contracted IT 
staff positions to Full Time Employee (FTE) positions within the VA?

    Response: The Office of Information and Technology (OI&T) is 
already positioning itself to recruit, retain, and train staff to have 
needed specialized skills through the use of our staff competency 
models, which are currently under development. These models will also 
be deployed to help ensure that VA has the continuously strong, capable 
leadership corps that it needs, and that leaders have the skills and 
proficiency to lead people and progress. However, in instances where 
specialized knowledge is needed for short duration, OI&T will continue 
to use contracted services, which provides a more cost-effective 
alternative to hiring full-time career Federal employees.

    Question 2: According to the VA OIG's recent report on the contract 
awarded to Catapult, their findings concluded that information provided 
to the vendor was unreliable. The documents proved to be incomplete or 
reliable, and the VA was aware of this. Why did VA continue with the 
procurement process knowing documents were incomplete or unreliable?

    Response: OI&T is currently conducting an internal review of the 
Catapult contract. We expect this review to be complete by mid-July, 
and would appreciate the opportunity to provide a brief on our findings 
when the review is complete.

    Question 3: The VA OIG was unable to determine if Catapult was in 
compliance with the Federal Acquisitions Regulation (FAR), because the 
VA did not request documentation on the subcontractors to ensure 
compliance with the FAR provision. Why would the VA not request or have 
this documentation available?

    Response: VA wants to clarify that we believe this question refers 
to the Office of Inspector General (OIG) Report discussion of possible 
non-compliance with FAR 52.219-27, which requires that specific minimum 
percentages of the labor cost be paid to the employees of the vendor or 
of another Service-Disabled Veteran-Owned Small Business (SDVOSB)*. The 
OIG Report refers only to the 50 percent minimum level; the 
installation of WiFi networks may well fall into the category of 
``Construction by special trades contractors'' which specifies a 25 
percent minimum level. We are aware that Catapult has stated in writing 
that they are in compliance with the FAR; we are not aware of what 
specific data they may have provided to the OIG to verify compliance.
    *The following minimum percentages are specified by FAR 52.219-27:

        1.  Services (except construction), at least 50 percent of the 
        cost of personnel for contract performance will be spent for 
        employees of the concern or employees of other service-disabled 
        Veteran-owned small business concerns;
        2.  Supplies (other than acquisition from a nonmanufacturer of 
        the supplies), at least 50 percent of the cost of 
        manufacturing, excluding the cost of materials, will be 
        performed by the concern or other service-disabled Veteran-
        owned small business concerns;
        3.  General construction, at least 15 percent of the cost of 
        the contract performance incurred for personnel will be spent 
        on the concern's employees or the employees of other service-
        disabled Veteran-owned small business concerns; or
        4.  Construction by special trade contractors, at least 25 
        percent of the cost of the contract performance incurred for 
        personnel will be spent on the concern's employees or the 
        employees of other service-disabled Veteran-owned small 
        business concerns.

    As stated above,OI&T is currently conducting an internal review of 
the Catapult contract. We expect this review to be complete by mid-
July, and would appreciate the opportunity to provide a brief on our 
findings when the review is complete.

    Question 4: In your response to the Committee on the letter we sent 
on March 25th inquiring about Open Source, you said that DoD's 
participation in Open Source VistA is not essential. Can you elaborate 
on this?

    Response: This question is now moot, as DoD has joined VA in 
support of the Open Source approach. Had DoD not joined in the Open 
Source approach, VA would have used to the Open Source approach to 
develop and accomplish the changes necessary to VistA to move it 
towards compliance with the integrated EHR (iEHR) architecture as 
defined by VA and DoD. While this is still the plan, both DoD and VA 
expect that the Open Source will be a viable way of identifying, 
selecting, and implementing modules of the iEHR that we jointly 
identify.

    Question 5: What is being done to balance the needs of IT security, 
while still having a common sense approach to meet needs of employees 
and veterans? (example: still do not have wireless Internet in VA 
facilities because of security fears, even though the public hospitals 
all have them)

    Response: Because of past events, VA clearly holds itself to a 
higher standard than previous years for information security and 
information protection. OI&T is working hard to strike a balance 
between our information security needs and convenient network use, 
while providing the tools and access needed by employees and Veterans. 
OI&T's information security team has developed strong information 
security controls on the wireless networks currently online in the 
hospitals with this capability. For medical centers without wireless 
access, the current concern is resolving conflicts with wireless 
medical devices, as well as the physical impediments to wireless access 
in large medical centers.
    OI&T and VHA are currently piloting a program by a third party 
vendor to provide wireless Internet access in the lobby and waiting 
areas of medical centers for Veterans to use.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                    Washington, DC.
                                                       May 12, 2011
Ms. Belinda J. Finn
Assistant Inspector General for Audits and Evaluations
Office of Inspector General
U.S. Department of Veterans Affairs
801 I Street, NW
Washington, DC 20001

Dear Ms. Finn:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Oversight and Investigations hearing 
on Reboot: Examining VA's IT Strategy for the 21st Century on May 11, 
2011. Please answer the enclosed hearing questions and deliverables by 
no later than Wednesday, June 22, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-9756.
            Sincerely,

                                                       Joe Donnelly
                                                     Ranking Member
    MH/ot

                                 <F-dash>

                                U.S. Department of Veterans Affairs
                                                    Washington, DC.
                                                      June 13, 2011
The Honorable Joe Donnelly
Ranking Member
Subcommittee on Oversight and Investigations
Committee on Veterans' Affairs
United States House of Representatives
Washington, DC 20515

Dear Congressman Donnelly:

    This is in response to your May 12, 2011, letter following the May 
11, 2011, hearing on Reboot: Examining VA's IT Strategy for the 21st 
Century. Enclosed are our responses to the additional hearing 
questions.
    Thank you for your interest in the Department of Veterans Affairs.
            Sincerely,

                                                    GEORGE J. OPFER
                                                  Inspector General
    Enclosure

                               __________

                   Questions for the Record from the
              Subcommittee on Oversight and Investigations
                     Committee on Veterans' Affairs
                 United States House of Representatives
                               Hearing on
        Reboot: Examining VA's IT Strategy for the 21st Century
    Question 1: From a VA OIG perspective, what steps has VA taken to 
improve its ability to manage information technology (IT) projects?

    Response: VA's Office of Information and Technology (OI&T) 
recognized that it has issues with its program management abilities to 
ensure that IT development efforts are successful. To manage this 
shortfall, OI&T established the Project Management Accountability 
System (PMAS), a performance based management discipline that requires 
frequent delivery (at least every 6 months) of IT functionality. PMAS 
is currently schedule-driven, allowing for flexibility in project scope 
and functionality to ensure the schedule can be met. Under PMAS, three 
consecutive failures (``3 strikes'') to meet a scheduled project 
deliverable will result in a project being ``paused.'' At the 
``paused'' stage, the project is assessed to determine if it should be 
continued or terminated. PMAS also includes a red flag process which 
allows anyone associated with a project to elevate project-related 
issues to senior level officials so that they can take corrective 
actions quickly.
    Further, OI&T is emphasizing Agile versus a traditional software 
development methodology, in which a project moves sequentially through 
concept, design, testing, and implementation phases. Agile is an 
iterative and incremental software development methodology that allows 
for requirements and solutions to evolve through team collaboration and 
interaction. Agile is intended to accomplish the following:

        <bullet>  Emphasize teamwork.
        <bullet>  Promote a disciplined project management process that 
        encourages frequent inspection and adaptation by breaking tasks 
        into small increments with minimal planning.
        <bullet>  Complement PMAS' requirement for frequent delivery of 
        deployable IT system functionality.

    Question 2: Can you explain the purpose of your current PMAS audit?

    Response: We are assessing whether OI&T has taken appropriate steps 
in implementing PMAS. Our audit will determine whether:

        <bullet>  An adequate plan was in place for PMAS 
        implementation.
        <bullet>  Resources are available and assigned to carry out 
        PMAS.
        <bullet>  PMAS staff roles and responsibilities have been 
        defined.
        <bullet>  PMAS Dashboard data for monitoring project status and 
        progress are reliable.
        <bullet>  Controls such as oversight reviews, cost tracking 
        mechanisms, and step-by-step guidance are in place to ensure 
        projects are not only meeting schedule, but also cost and 
        performance goals.

    These areas reflect issues we have historically identified in other 
audits of OI&T system development initiatives.

    Question 3: Do you see problems with PMAS' incremental delivery and 
managing development projects to schedule?
    Yes. Stakeholders have expressed concerns about disrupted 
operations when they do not receive planned functionality on time and 
the time it may take to produce all the required functionality under 
the incremental delivery approach. Further, the potential exists that 
once functionality is fully delivered it may be obsolete.
    For example, we reported, in our audit of the Post-9/11 GI Bill 
Long Term Solution (LTS), that managing a project primarily to schedule 
may be at the risk of performance and cost (Audit of VA's 
Implementation of the Post-9/11 GI Bill Long Term Solution, September 
30, 2010). During certain phases of LTS development, the project met 
schedule, but did not provide the originally intended functionality. 
The project did not receive a strike even though the functionality 
delivered was significantly less than planned.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                       Subcommittee on Oversight and Investigations
                                                    Washington, DC.
                                                       May 12, 2011
Mr. Joel Willemssen
Managing Director, Information Technology
U.S. Government Accountability Office
Government Accountability Office
441 G St., NW
Washington, DC 20548

Dear Mr. Willemssen:

    I would like to request your response to the enclosed question for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Oversight and Investigations hearing 
on Reboot: Examining VA's IT Strategy for the 21st Century on May 11, 
2011. Please answer the enclosed hearing questions and deliverables by 
no later than Wednesday, June 22, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-9756.
            Sincerely,

                                                       Joe Donnelly
                                                     Ranking Member
    MH/ot

                               __________

                              U.S. Government Accountability Office
                                                    Washington, DC.
                                                      June 22, 2011
The Honorable Joe Donnelly
Ranking Member
Subcommittee on Oversight and Investigations
Committee on Veterans' Affairs
House of Representatives

    Subject: Reboot: Examining the Department of Veterans Affairs 
Information Technology Strategy for the 21st Century

    This letter responds to your recent question related to our May 11, 
2011, testimony on the Department of Veterans Affairs' (VA) ongoing 
information technology (IT) management challenges.\1\ At that hearing, 
we discussed VA's weaknesses in managing its IT resources, particularly 
in the areas of systems development, information security, and 
collaboration with the Department of Defense (DoD) on efforts to meet 
common health system needs. Your question, along with our response, 
follows.
---------------------------------------------------------------------------
    \1\ GAO, Information Technology: Department of Veterans Affairs 
Faces Ongoing Management Challenges, GAO-11-663T (Washington, D.C.: May 
11, 2011).
---------------------------------------------------------------------------
    In your opinion, what specific actions does the VA IT office need 
to focus on to capitalize on current technologies available?
    VA can take a number of specific actions to capitalize on available 
IT. As discussed in our prior reports and summarized in our recent 
testimony,\2\ the following actions could help VA address challenges in 
improving system development, strengthening information security, and 
increasing collaboration with DoD.
---------------------------------------------------------------------------
    \2\ GAO-11-663T.
---------------------------------------------------------------------------
    Improve system development: VA has historically experienced 
significant IT system development difficulties and can improve two 
projects that have yielded mixed results. For its outpatient 
appointment scheduling project, which spent an estimated $127 million 
over 9 years without implementing any of the planned capabilities, the 
department can improve its acquisition plans, identify complete system 
requirements, adhere to system testing guidance, increase earned value 
management data reliability, manage project risks, and provide 
effective oversight.\3\ Additionally, although VA has partially 
delivered new system capabilities to process education benefits 
provided under the Post-9/11 GI Bill, the department can improve its 
effort to complete the system. In particular, to guide the full 
development and implementation of the new system, VA can create project 
performance measures, establish traceability between system 
requirements and legislation, define criteria for what constitutes the 
system being ``done,'' improve system testing, and implement a project 
oversight tool.
---------------------------------------------------------------------------
    \3\ GAO, Information Technology: Management Improvements Are 
Essential to VA's Second Effort to Replace Its Outpatient Scheduling 
System, GAO-10-579 (Washington, D.C.: May 27, 2010).
---------------------------------------------------------------------------
    Strengthen information security: Effective information security is 
essential to securing the systems and information on which VA depends 
to carry out its mission. Without proper safeguards, the department's 
systems are vulnerable to individuals and groups with malicious intent 
who can intrude and use their access to obtain sensitive information, 
commit fraud, disrupt operations, or launch attacks against other 
computer systems and networks. In recent years, VA has reported an 
increasing number of security incidents and events. The department can 
improve its security posture by implementing the recommendations of its 
Office of Inspector General for strengthening access controls, 
configuration management, change management, and service continuity. 
Also, the department can fully implement the requirements of the 
Federal Desktop Core Configuration (FDCC) initiative, including 
implementing a baseline set of configuration settings, acquiring and 
deploying an FDCC compliance tool, and implementing a policy to monitor 
compliance.\4\ Additionally, VA should ensure that any use of cloud 
computing that the department undertakes includes implementation of 
appropriate information security controls.
---------------------------------------------------------------------------
    \4\ GAO, Information Security: Agencies Need to Implement Federal 
Desktop Core Configuration Requirements, GAO-10-202 (Washington, D.C.: 
March 12, 2010).
---------------------------------------------------------------------------
    Increase collaboration with DoD: VA and DoD have two of the 
Nation's largest health care operations, providing health care to 6 
million veterans and 9.6 million active duty servicemembers and their 
beneficiaries at estimated annual costs of about $48 billion and $49 
billion, respectively. Although the results of a 2008 study found that 
more than 97 percent of functional requirements for an inpatient 
electronic health record system are common to both departments, VA and 
DoD face barriers to identifying and implementing efficient and 
effective IT solutions to jointly address their common health care 
system needs. Thus, we have recommended several actions that VA can 
take, in conjunction with DoD, to overcome the barriers they face as 
they modernize their electronic health record systems. We specifically 
recommended that the departments improve their strategic planning, 
further develop their joint health architecture, and define and 
implement a process for identifying and selecting joint IT 
investments.\5\
---------------------------------------------------------------------------
    \5\ GAO, Electronic Health Records: DoD and VA Should Remove 
Barriers and Improve Efforts to Meet Their Common System Needs, GAO-11-
265 (Washington, D.C.: February 2, 2011).
---------------------------------------------------------------------------
    In summary, these actions are intended to address the challenges VA 
faces in improving system development, strengthening information 
security, and increasing collaboration with DoD and could help the 
department better capitalize on IT.
    To respond to this question, we relied on previously reported 
information, as well as information collected through follow-up with 
the department. The work supporting these reports was conducted in 
accordance with generally accepted government auditing standards. These 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
    Should you or your office have any questions on matters discussed 
in this letter, please contact me at (202) 512-6253 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed9a84818188809e9e888387ad8a8c82c38a829bc3">[email&#160;protected]</a>
            Sincerely yours,

                                                 Joel C. Willemssen
                          Managing Director, Information Technology

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
